<html>
<title> - CONFRONTING THE IRANIAN CHALLENGE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]









                   CONFRONTING THE IRANIAN CHALLENGE

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 8, 2018

                               __________

                           Serial No. 115-126

                               __________

        Printed for the use of the Committee on Foreign Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                      or http://www.gpo.gov/fdsys/
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

30-016 PDF                     WASHINGTON : 2018 




























               
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Lincoln P. Bloomfield, Jr., chairman emeritus and 
  distinguished fellow, The Stimson Center (former Assistant 
  Secretary for Political Military Affairs, U.S. Department of 
  State).........................................................     4
The Honorable Stephen Rademaker, senior of counsel, Covington and 
  Burling, LLP (former Assistant Secretary for Arms Control and 
  Assistant Secretary for International Security and 
  Nonproliferation, U.S. Department of State)....................    11
The Honorable Jane Harman, director, president, and chief 
  executive officer, The Woodrow Wilson International Center for 
  Scholars (former Member of Congress)...........................    24

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Lincoln P. Bloomfield, Jr.: Prepared statement.....     7
The Honorable Stephen Rademaker: Prepared statement..............    14
The Honorable Jane Harman: Prepared statement....................    27

                                APPENDIX

Hearing notice...................................................    74
Hearing minutes..................................................    75
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    77
Written response from the Honorable Jane Harman to question 
  submitted for the record by the Honorable Dina Titus, a 
  Representative in Congress from the State of Nevada............    79

 
                   CONFRONTING THE IRANIAN CHALLENGE

                              ----------                              


                          TUESDAY, MAY 8, 2018

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:00 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. All right. We will call this hearing to 
order.
    Later today, the President will announce whether he intends 
to keep the United States in the Iran nuclear agreement. This 
is earlier than expected.
    Over the past 6 months, the Trump administration has urged 
France and Germany and Britain to help address the full range 
of threats posed by the Iranian regime.
    U.S. negotiators have rightly pushed for fixes to the 
deeply-flawed agreement, including stronger inspections, new 
sanctions on Iran's ballistic missiles program, and a solution 
to the deal's sunset problem.
    Addressing these serious shortcomings is a must to keep 
Iran from threatening the United States and our allies with a 
nuclear weapon.
    As I've said, this agreement's fundamental flaw is that it 
trades temporary restrictions for permanent sanctions relief.
    Today, this committee will examine the decision before the 
President. As the members of this committee know, I opposed the 
nuclear deal and so did a bipartisan majority of the committee.
    And why was this so? Because the Obama administration, in 
the negotiations, ditched its key goals. The deal does not shut 
off Iran's path to a nuclear weapon. It does not allow 
inspectors ``anywhere, anytime, 24/7 access.'' It does not stop 
the regime's pursuit of intercontinental ballistic missiles and 
it gives Tehran an infusion of cash to support more of its 
terrorist activities around the world.
    That said, I believe the best path forward at this point is 
to continue to fix these flaws as we enforce the hell out of 
the deal.
    The Obama administration has put us in a tough spot. 
Roughly, $100 billion was given to Iran. At least $1.7 billion 
of that was an apparent cash ransom payment, stacked on pallets 
and flown, against the advice of the Justice Department and 
other officials, to the Iranian regime at the time when the 
three hostages were released.
    Much of these funds have likely found their way into the 
hands of the Revolutionary Guard Corps. Tearing up the nuclear 
deal will not recover this cash. That toothpaste isn't going 
back into the tube.
    It also won't help galvanize our allies into addressing 
Iran's dangerous activities that threaten us all. I fear a 
withdrawal would actually set back these efforts and Congress 
has heard nothing about an alternative.
    Last week's move by Israeli Prime Minister Netanyahu to 
unveil Iran's secret nuclear weapons archive reminds us all 
what is at stake. Despite its repeated denials, Iran had a 
comprehensive program to design, to test, and to build a 
nuclear weapon.
    Of course, this begs the question--what is Iran hiding 
today? Shouldn't we have better inspections? Remember, the 
deal's existing restrictions expire in the short years ahead.
    The key restriction--the ability to quickly enrich 
uranium--begins to phase out in less than 8 years. We should be 
able to get an agreement with the Europeans to fix these 
serious flaws.
    I understand we have made encouraging progress in recent 
weeks. If we don't have an agreement today, let's double down 
on diplomacy and get a deal in the weeks ahead. The Europeans 
need to get to yes.
    And now I'll turn to our ranking member, Mr. Engel of New 
York, for his opening statement.
    Mr. Engel. Thank you, Mr. Chairman. I concur with your 
opening statement.
    To our witnesses, welcome to the Foreign Affairs Committee. 
We are grateful for the decades of public service that all of 
you collectively represent, and Jane, it's always good to see 
you back on Capitol Hill.
    Once again, we find ourselves against a phony deadline 
dealing with the Iran nuclear agreement. Once again, the 
President has created a crisis where none exists and kept us 
all wondering what he's going to do.
    This administration has promised a comprehensive approach 
for dealing with the regime in Tehran. Yet, 16 months along, 
the Trump administration's Iran policy seems to be do nothing 
until the clock runs out and make unrealistic demands of 
Congress or of our international partners, and up to this 
point, kick the can down the road a few more months.
    The President has until Saturday to decide whether to 
continue waiving nuclear-related sanctions on Iran, though 
reporting this morning suggests that he will announce an end to 
those waivers today.
    I hope he understands the stakes. If he puts those 
sanctions back into effect, the United States will be in 
violation of our obligations under the nuclear deal and trigger 
the deal's collapse.
    The argument that the deal would continue without American 
participation is simply not true. There is no having it both 
ways, and let's be clear, President Trump would be the one who 
pulled the plug and undermined American credibility.
    I've said more times than I can count that I opposed the 
deal when it was announced. I voted against it on the House 
floor and I continue to have doubts about the JCPOA, and I have 
doubts about whether it will prevent Iran from developing a 
nuclear weapon over the long term.
    But I know for certain that pulling out of the deal now 
will make a nuclear-armed Iran a much more immediate threat. 
Some of my chief concerns with the agreement were the sunset 
provisions.
    But those sunsets come many years in the future. What's the 
emergency now? Why the hysterical rush if the United States 
undermines the deal for sunsets that expire in 10 or 15 years 
would instead expire at the end of the week?
    Iran would race headlong toward a bomb while keeping the 
cash that's been freed up over the last few years of sanctions 
relief.
    If we want to extend the sunsets, and many of us do--and 
that was one of my major objections to the deal--let's work 
cooperatively with our allies rather than ruining any chance we 
have of keeping the Iranians from the bomb for a longer time.
    Reimposing sanctions would also have far-reaching 
consequences besides terminating the JCPOA. We could find 
ourselves slapping serious punitive measures on our closest 
friends and allies.
    Furthermore, it would send a terrible signal that the 
United States does not live up to its word and with North Korea 
negotiations ramping up, that is the exact wrong time to send 
that message.
    Why would anyone negotiate with us if the minute we got a 
new administration or a new President they ripped up any 
agreement in order to get rid of it and start anew?
    I think it undermines our credibility and it's the wrong 
message to send, and I have to note that President Trump could 
not have been more wrong when he said that killing the Iran 
deal sends the right message to North Korea.
    Frankly, it sends precisely the wrong message, and that 
message is that the U.S. won't live up to its commitments. At 
the same time that the United States scuttles the deal, we 
would lose whatever leverage we have in trying to make the 
agreement stronger and addressing all of Iran's other 
aggressive activities.
    I think there is potential for progress but it requires the 
United States to lead, work to bring parties back to the table, 
lean into new negotiations, allow the present deal to continue, 
and try to build on top of it.
    Instead, the administration wants to sit back and say 
Europe needs to do the hard work or Congress needs to fix it. 
That's just not the way these things work.
    Congress has done its part. We have given the 
administration all the tools it needs to crack down on Iran for 
its illegal ballistic missile program, its support for 
terrorism, its atrocious human rights record.
    The White House should use these tools to craft what it 
promised: A comprehensive Iran strategy rather than bringing us 
to the brink of crisis every 3 months.
    I look forward to hearing our witnesses views on this 
challenge. I, again, thank the chairman and concur with his 
remarks, and I yield back.
    Chairman Royce. Thank you, Mr. Engel.
    So this morning, I am pleased to welcome our panel. We have 
got distinguished guests before this committee including 
Ambassador Lincoln Bloomfield.
    He's the chairman emeritus and distinguished fellow at the 
Stimson Center, and he previously served as the Assistant 
Secretary of State for Political and Military Affairs.
    We have Mr. Stephen Rademaker who serves as senior of 
counsel at Covington and Burling. Previously, he served as the 
Assistant Secretary of State for Arms Control, before that, the 
Assistant Secretary of State for International Security and 
Nonproliferation, and before that, with this committee.
    We have Jane Harman. She leads the Woodrow Wilson 
International Center for Scholars. Previously, she served here 
in the U.S. House of Representatives representing the people of 
California's 36th District.
    And we appreciate all of them being here with us today, and 
without objection the witnesses' full prepared statements will 
be made part of the record.
    Members here are going to have 5 calendar days to submit 
any statements or questions or any extraneous material for the 
record.
    Obviously, the President's announcement yesterday that 
he'll be making an announcement on the Iran deal this afternoon 
and the strong expectation that he'll be exiting the agreement 
changes today's discussion some and it affects, certainly, for 
the witnesses, their written testimonies, which I've read.
    I appreciate the scrambling and I am hopeful that this 
would be all the more reason why we should be concise here 
today in terms of your testimony and that way we can hear your 
expertise in response to our questions.
    And, again, I thank you for being here to discuss these 
very important topics. We will start with Ambassador Bloomfield 
and we will ask him to please summarize your remarks if you 
can.

STATEMENT OF THE HONORABLE LINCOLN P. BLOOMFIELD, JR., CHAIRMAN 
 EMERITUS AND DISTINGUISHED FELLOW, THE STIMSON CENTER (FORMER 
   ASSISTANT SECRETARY FOR POLITICAL MILITARY AFFAIRS, U.S. 
                      DEPARTMENT OF STATE)

    Ambassador Bloomfield. Thank you, Chairman Royce, Ranking 
Member Engel, members of the committee. Thank you for the honor 
of being with you this morning.
    Like you, I await the President's announcement this 
afternoon whether he will continue to waive nuclear sanctions 
on Iran or withdraw the United States from the P5+1 nuclear 
agreement.
    There are valid reasons to maintain the restraints on 
Iran's nuclear program under the Joint Comprehensive Plan of 
Action. There are also strong criticisms of the accord because 
it has left the world uncertain as to whether Iran still seeks 
to develop nuclear weapons in the future.
    I find merit in both points of view and believe that the 
legitimate concerns of supporters and critics of the JCPOA can 
both be accommodated if the Congress is prepared to act.
    The Iranian regime's malign activities domestically and 
regionally require a more effective response and the President 
is far from alone in his criticism of the nuclear accord.
    The question is what would be a successful policy. It is 
not enough to be right. The U.S. needs influence, credibility, 
and leverage over Iran and the problems it is creating.
    If the U.S. pulls out of the JCPOA, I see four serious 
consequences that we should hope to avoid.
    First, Britain, France, and Germany, our strategic allies 
who've spent years negotiating this agreement, will be 
disappointed.
    Their publics may feel as though we snubbed the best 
diplomatic efforts of President Macron, Chancellor Merkel, and 
Minister Boris Johnson.
    If we end up in disputes, attempting to enforce Iran's 
sanctions against European companies, the West will be divided 
over the Iran threat.
    Secondly, Iran may resume an accelerated rush to build 
nuclear weapons with no restraints. The head of the Atomic 
Energy Organization of Iran, Ali Akbar Salehi, recently said 
that they could resume 20 percent enrichment activities at the 
Fordow facility in 4 days.
    Third, a nuclear arms race could break out in the Middle 
East. Iran's Arab neighbors across the Persian Gulf declared in 
2008 that they will match any weapons capability that Iran 
possesses--a position reiterated in recent months.
    America's pledge to maintain Israel's qualitative military 
edge in the region could become meaningless if Iran and its 
Arab neighbors are racing to build or acquire nuclear weapons.
    The fourth major concern about withdrawing from the JCPOA, 
even when the CIA director testified last month that Iran is in 
compliance, is the long-term impact on Presidential diplomacy.
    The day that other governments conclude that an executive 
agreement reached with one administration might easily be cast 
aside by the next President, they may insist on a treaty, 
requiring ratification by two-thirds of the Senate.
    Not only will the House of Representatives be disempowered, 
but Presidential power to shape foreign policy including trade 
will be diminished.
    That is why in my prepared statement I have suggested that 
the Congress amend the Iran Nuclear Agreement Review Act of 
2015 so that the President no longer has to certify Iran's 
compliance every 90 days.
    We and our allies should intensify the identification and 
inspection of suspicious sites. The reality is that the final 
milestone in the JCPOA where the International Atomic Energy 
Agency reaches a ``broader conclusion'' that Iran's nuclear 
activity is entirely peaceful, will never happen unless all 
legitimate suspicions can be put to rest.
    If Iran will not extend the duration of sunset clauses in 
the accord, we should codify the longstanding bipartisan policy 
that Iran must not have nuclear weapons.
    The President would leave no room for doubt by declaring 
this as a doctrine.
    A third area of concern is Iran's ballistic missile 
activity. When a 2010 U.N. prohibition was lifted as part of 
the accord, Iran immediately began testing missiles.
    Scores of missiles have been fired into Saudi Arabia from 
Yemen. There must be no financial dealings with any 
individuals, companies, banks, and organizations supporting 
Iran's ballistic missile program.
    Five years have passed since President Obama extended the 
offer to Iran to pursue a path to a more respectful 
relationship. The nuclear deal was reached.
    But Iran has shown no interest in changing its ways. For 
decades the clerical dictatorship has been conducting nonstop 
geopolitical arson, threatening regional peace and stability, 
international norms, and U.S. national security interests.
    We, and our allies, must stand together and say, ``no 
more.''
    I thank the committee and look forward to your questions.
    [The prepared statement of Ambassador Bloomfield follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Chairman Royce. Mr. Rademaker.

    STATEMENT OF THE HONORABLE STEPHEN RADEMAKER, SENIOR OF 
COUNSEL, COVINGTON AND BURLING, LLP (FORMER ASSISTANT SECRETARY 
  FOR ARMS CONTROL AND ASSISTANT SECRETARY FOR INTERNATIONAL 
    SECURITY AND NONPROLIFERATION, U.S. DEPARTMENT OF STATE)

    Mr. Rademaker. Thank you, Mr. Chairman and Ranking Member 
Engel and members of the committee. It's a pleasure to appear 
before you again. I thank you for the invitation.
    I want to say at the outset, Mr. Chairman, I agree entirely 
with your opening statement. I really couldn't have put it 
better.
    I have submitted a prepared statement. I think it makes a 
lot of excellent points and I urge you to read it. But since 
there have been some developments since I wrote the statement, 
I think I will depart from it and make a few additional points 
to those in my prepared statement.
    The President, this afternoon, is going to announce his 
decision. According to press reports, he's going to announce 
that he's decided not to exercise the waiver authority that he 
has under existing law, going forward, and thereby allow 
existing U.S. sanctions required under laws passed by this 
committee to take effect, which I think would mark a U.S. exit 
from the JCPOA.
    That will be an unfortunate outcome for all the reasons 
that Ambassador Bloomfield has identified and I am sure 
Congresswoman Harmon will make those points as well about the 
downsides to that outcome.
    The point I want to make is there are basically three ways 
to avoid that outcome. One is for the President to change his 
mind. I don't think he's going to change his mind. He's drawn a 
line in the sand and I think today he's going to announce his 
determination to adhere to that line.
    So we can sit here and complain that his tactics are all 
wrong. But I don't think he's going to listen. He's made up his 
mind and we know what direction he's going.
    The second way to avoid it is the one that you suggested in 
your opening statement, Mr. Chairman, and that is for the 
Europeans to reach an agreement with Trump administration to 
fix the agreement and that--you know, I've observed this 
closely and I think actually the administration has made a good 
faith effort to negotiate with the Europeans and has come up 
with what I would describe as a very modest proposal.
    For a man who declared that this was the worst deal ever, 
when you look at what he's asking from the Europeans, it's a 
price for keeping the United States in the deal. It's 
relatively modest price and, in my opinion, entirely 
defensible, and I will come to that in a moment.
    The third way to avoid it--and it was actually I think 
President Trump's preferred way to keep the United States in 
the deal--was for Congress to pass legislation very similar to 
what he's asked the Europeans for.
    Now, he really looked to the Senate to act on that 
legislation initially. There was a bill introduced by Chairman 
Corker and Senator Cotton, and he specifically endorsed that 
legislation. This was in October of last year.
    He called on the Senate to pass that legislation and it was 
clear that if the Congress enacted that legislation he would 
keep the United States in the JCPOA.
    That legislation stalled in the Senate. One of the reasons 
it stalled in the Senate was the Europeans deployed their 
diplomats to lobby against them and I think that's what 
accounts for the President's decision in January to sort of 
shift the onus from the Senate to the Europeans and said, if 
you want to work against me in the United States Congress, 
well, I am now going to ask something of you.
    So I think that's sort of how we got to where we are today. 
But a third solution would be to go back to the Corker-Cotton 
legislation which, again, I think actually represents a 
defensible approach to what to do about the fundamental problem 
we face, which is the sunset clause.
    I think even supporters of the JCPOA acknowledge that the 
sunset clause is a problem, that effective January 2026 Iran's 
ability to enrich uranium is going to go up exponentially and 
their ability to break out and produce nuclear weapons will 
become quite imminent and what do we do about that.
    In my prepared statement I identify, basically, five 
options for addressing that problem. One of them is just to 
accept that idea that Iran will be able to have nuclear weapons 
if it's wants to after 2026.
    I think that's probably the worst of the options. I don't 
think many people will endorse that option.
    The second is to threaten to bomb them if they get close to 
a nuclear weapon and a lot of very respectful people have urged 
that option.
    There was a statement here that lots of prominent foreign 
policy leaders signed onto in 2015 calling for that--just 
threatened military force if they get close to a nuclear 
weapon, notwithstanding that they're able, under the JCPOA, 
after 2026 to get close to having a nuclear weapon.
    Third option, threaten them with sanctions, and that's what 
President Trump is calling for--threaten them with sanctions if 
they get close to a nuclear weapon after 2026. I mean, that's 
the key point. He's asking for agreement on what's going to be 
our policy after 2026.
    So, the idea that he's asking for something that's contrary 
to the JCPOA is simply inaccurate--something that would put us 
in breach of the JCPOA is inaccurate because it is a policy 
statement about what would happen after 2026. Until we get to 
2026, there's no argument that we've taken steps contrary to 
the JCPOA.
    The fourth option I identify is to negotiate with the 
Iranians. I am here to predict that before the Trump 
administration is over he's going to negotiate with the 
Iranians.
    He's getting ready next month to sit down with Kim Jong-un. 
I think he's going to negotiate with the Iranians.
    Everything that's going on now is him laying the groundwork 
for a negotiation with the Iranians, I believe he's posturing. 
The JCPOA is a pitiful platform from which to negotiate with 
the Iranians.
    So he's trying to change the baseline of that negotiation. 
That's what's going on here and he's asking the Europeans to 
help him change that baseline. He's asking the Congress to help 
him change that baseline.
    He's not getting cooperation on either of those things and 
that's what's leading him to make his announcement this 
afternoon which, as I said at the outset, is a very unfortunate 
development.
    [The prepared statement of Mr. Rademaker follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                              ----------                              

    Chairman Royce. Congresswoman Jane Harman.

 STATEMENT OF THE HONORABLE JANE HARMAN, DIRECTOR, PRESIDENT, 
 AND CHIEF EXECUTIVE OFFICER, THE WOODROW WILSON INTERNATIONAL 
        CENTER FOR SCHOLARS (FORMER MEMBER OF CONGRESS)

    Ms. Harman. Thank you, Mr. Chairman, and warm greetings to 
so many good friends on this committee, and especially to you. 
We were classmates elected in the same year. Mr. Engel was a 
few terms ahead of us.
    We served together here for nine terms and my able 
successor, Ted Lieu, is on the bottom row of this committee 
smiling at me. So I appreciate that.
    But to so many of you, we were together in so many battles 
and I continue to care about this committee very much and wish 
you well as you enter your next chapter. Thank you for your 
really valuable service to the United States.
    Like my two panelmates, I agree on where we should go. I 
disagree with many of you on the merits of the deal. Had I been 
here, I would have supported the deal.
    But nonetheless, at this point, I agree strongly with you 
and with Mr. Engel that we should stay in the deal and proceed 
with many of the things that have been discussed here.
    Obviously, I had prepared testimony arguing that that's not 
likely to happen. But I have adjusted my testimony to make a 
few points, some of which have already been made.
    I think that, while the deal isn't perfect, if we withdraw, 
Iran could, and has said they will, withdraw too, 
notwithstanding an additional protocol which prohibits them 
from returning to the nuclear weapons program. I am not sure 
they would follow that.
    Some fear that Iran might also withdraw--and you mentioned 
this--from the 1968 nuclear nonproliferation treaty under which 
191 countries have agreed to prevent the spread of nuclear 
weapons and related technology.
    To me, that would be a major setback and potentially 
provoke a nuclear arms race in the region, which has been 
mentioned. We would be far worse off under that scenario.
    And let's not forget that there are four U.S. citizens and 
two green card holders in captivity now in Iran. Their chances 
of being released just got or just will get worse.
    For sure the transformation that the Obama administration 
hoped for in our relationship with Iran has failed. Iran's 
malign behavior has not improved. It has gotten worse. We 
should accept that fact and address those problems with careful 
attention to Iranian involvement in Syria, Yemen, Lebanon, and 
its provocative behavior to its neighbor, Israel, our 
democratic ally in the region.
    The results being tallied now from Sunday's Lebanese 
parliamentary election suggest that Hezbollah has gained 
seats--at least one seat--and surely gained influence in that 
country and that is worrisome.
    There is a reason, as has been pointed out, that President 
Macron and Chancellor Merkel picked last week to visit the 
United States and that British Foreign Minister Boris Johnson 
visited yesterday.
    Three of our closest allies urged the U.S. to stick with 
the JCPOA. They made clear that they are open to a four-party 
side agreement. The assumption would be that China and Russia, 
the other parties, would not join.
    But the recommendations for that agreement I think we all 
agree on and they would make the deal better. They certainly 
include extending the expiration date.
    There should be no expiration date requiring inspection of 
military sites, a moratorium on ballistic missile testing and 
development, and Iran ending its support of terror groups and 
other operations across the Middle East region.
    It remains my view that addressing Iran's meddling across 
the Middle East won't get easier to manage without a deal.
    We still lack a comprehensive strategy to address the 
Iranian challenge, which also evaded the Obama administration. 
What is our Plan B?
    I think that's something this committee has a chance to 
address on a bipartisan basis. To me, Congress can't continue 
to be AWOL from the discussion of the authorization of use of 
military force--an AUMF.
    Most of us were here when the 2001 AUMF passed. I surely 
voted for it, as did every member of this House except for one, 
and it is the basis of continued U.S. military action in the 
region.
    My view is that it was limited in time and space and it is 
time for Congress to step up and address the secondary and 
tertiary effects of withdrawing from the Iran agreement and 
some of the other activities, many of them military--many of 
them using military technology like drones or train and assist 
missions in the greater Middle East, and Congress can and 
should do this.
    I also wonder--and this was raised--whether the Trump 
administration has adequately considered the linkage of 
withdrawing here and the conversation President Trump will 
have, hopefully, soon with North Korea.
    Obviously, the Kim regime is watching closely. By walking 
away from the JCPOA, we send an important message about how 
seriously we do or do not respect the deals to which we agree.
    The contours of President Trump's decision are not yet 
clear. If he waives secondary sanctions against our European 
allies, they will likely continue to trade with Iran and that 
could reduce the chance that Iran withdraws from the deal.
    If he doesn't waive the secondary sanctions, then he has 
invited, in my view, a major trade dispute with Europe, which 
will be amplified if he decides to impose aluminum and steel 
tariffs on the EU next month.
    We should not underestimate the need for our allies. The 
Europeans are disappointed, if not dismayed, by the U.S. 
decision to leave the Paris Climate Accord.
    They helped to construct the world order after World War II 
and we will pay a huge price if they move to align elsewhere.
    So, in conclusion, this is a time, in my view, for Congress 
to step up and insist that secondary and tertiary ramifications 
of these issues be considered.
    It is also a time for Congress to put the country first on 
a bipartisan basis. The stakes couldn't be higher.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Harman follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
    
                              ----------                              

    Chairman Royce. Thank you very much, Jane.
    Okay. So we'll focus here on some of the points that Steve 
Rademaker made and both of the other witnesses made.
    If we go to the January 12th statement that the President 
made, he called for a new U.S.-EU3 supplemental agreement is 
what he called the addendum agreement--that would impose new 
multilateral sanctions if Iran develops or tests long-range 
missiles, thwarts inspections--these are his words--or makes 
progress toward a nuclear weapon, requirements that should have 
been in the nuclear deal in the first place and these 
provisions must never expire.
    So these were his comments. Some of the European leaders 
have similar concerns. We've heard them raise those concerns 
with us.
    So at this point, what could be done to encourage European 
partners to address this very important issue? I would say this 
is the crux of it.
    The other thing that concerns me is the ballistic missile 
program Iran is running and what it means in terms of their 
transfer of ballistic missiles into Syria and into Lebanon, et 
cetera, et cetera, into the hands of Hezbollah and other 
militias.
    But the key question here is just to get back to the fact 
that we've heard these concerns raised by the Europeans. Back 
in January, the President said that this kind of an addendum 
would be a way to resolve this.
    Is there a way to get our European allies here more focused 
on just such a solution?
    Steve, if you want to begin.
    Mr. Rademaker. Thank you, Mr. Chairman.
    The crux of the problem is that beginning January 2026, 
Iran, under the terms of the JCPOA, basically can have a 
nuclear weapon at a time of its choosing.
    They will be able to produce the fissile material that they 
would want or that they would need to do that, and probably not 
just one nuclear weapon but lots of nuclear weapons and they 
could do it in such a short time that we wouldn't even be able 
to detect it before it happened.
    What do you do about that? You know, a lot of leading 
experts said, well, not a problem--we'll just threaten to bomb 
them if they do that.
    What President Trump has said, and what he called for in 
his January speech, was no, let's threaten them with economic 
sanctions if they do that.
    And the Europeans have hesitated to agree to what he's 
asked for, you know, an agreement about what we would do 
beginning January 2026 if they use flexibility under the 
agreement.
    Their first concern, as I understand it, is some of them 
say, well, this would violate the JCPOA. And the point I want 
to make about that is Iran has declared that they're not going 
to allow inspections of military sites and it's clear that the 
JCPOA requires them to allow inspections of military sites.
    So is Iran in violation of the JCPOA by having said today, 
we will never do something we are required to do under the 
agreement?
    Chairman Royce. Well, that's what the Ayatollah says.
    Mr. Rademaker. Well----
    Chairman Royce. And, of course, he makes the decision. The 
difficulty is that the Ayatollah took a different position, 
really, Steve, than his chief negotiator.
    His position was, I will make the final decision--you won't 
be allowed on any military base.
    But on that, we seem to have consensus. The Europeans agree 
with us on inspections. The Europeans seemingly agree with us 
on the ICBM aspect of it. So we can probably get there. In my 
view, we can get there on those two issues.
    The crux of it, as you say--and I would like to hear from 
the other two witnesses, too--is this issue of the sunset--is 
there a way to phrase this, or is there a conclusion we can 
come to that if they roll out an aggressive nuclear weapons 
program at the end of the agreement that there's going to be 
some kind of response and, you know----
    Mr. Rademaker. Well, I think the two reservations the 
Europeans have----
    Chairman Royce. Yes.
    Mr. Rademaker [continuing]. Is, first, there's an argument 
that it would be a violation of the JCPOA for them to agree to 
what President Trump has asked for.
    Chairman Royce. Yes.
    Mr. Rademaker. And on that point, I am saying just as I 
don't think the Iranians have violated the JCPOA yet by saying 
they're not going to allow these inspections.
    It would not be a violation of the JCPOA for us to declare 
with the Europeans what our policy is going to be starting in 
2026.
    Chairman Royce. Got it. Yes.
    Mr. Rademaker. And I think some of the Europeans are still 
confused and they still make the argument that, no, that would 
violate the agreement today for us to declare that policy that 
we are going to follow starting in 2026.
    Chairman Royce. I understand.
    Mr. Rademaker. So, satisfying them on the legal point I 
think is the first thing. Then the second is----
    Chairman Royce. Let's go to Jane--yes.
    Mr. Rademaker [continuing]. Will the Iranians withdraw from 
the agreement if we do that and, there, you know, look, it's in 
Iran's interest to bluff, right. I mean, they're going to want 
us to think that they would withdraw if we took that position. 
The question is, would they actually withdraw?
    I don't think it's in their interest to go back to the days 
of sanctions and isolation and confrontation, which is what the 
reimposition of U.S. sanctions would mean.
    So I think actually the risk of Iranian withdrawal is much 
less than some have suggested.
    Chairman Royce. I tend to agree with you. But my time has 
expired. I am going to have to go to Mr. Engel for his 
questions.
    Mr. Engel. Thank you, Mr. Chairman.
    In his January 12th speech, President Trump said if Iran 
does not comply with any of these provisions, American nuclear 
sanctions would automatically resume.
    The next waivers that are due of the 2012 NDAA sanctions 
which require the President to prevent foreign banks from 
opening accounts in the United States or impose strict 
limitations on existing U.S. accounts.
    If those banks process payments through Iran's central 
bank, the law exempts those countries who significantly reduce 
their purchases of Iranian oil from the previous reporting 
period.
    Ms. Harman, let me ask you this. How would this affect 
countries like Japan, India, South Korea, and Taiwan, which 
have not reduced their importation of Iranian oil?
    Ms. Harman. Well, that's what I was trying to address in my 
testimony. President Trump could say that he's decertifying the 
deal today but he could waive the imposition of those secondary 
sanctions.
    I surely hope he does that. I think that would be a better 
result. But let me also agree with Mr. Rademaker that he had 
better options. I mean, there's no reason to withdraw from the 
deal now.
    There is every reason to work with our European allies who 
said they were willing to do it, on making the deal stronger 
before it expires. It's not expiring tomorrow.
    And let me just add, finally, that Secretary of State 
Pompeo, when he was the head of the CIA, said that Iran is 
complying with the deal--with the four corners of the deal.
    Let's understand, as the senior vice president at the 
Wilson Center, Rob Litwak, who's very knowledgeable about this, 
always says, the deal was a transaction, not a transformation.
    It was a transaction to end Iran's program to pursue 
nuclear weapons for a finite period of time. I wish that had 
been infinite and I still hold out hope that that could be 
achieved if we took a different path.
    Mr. Engel. Well, I would hope that it could be achieved 
because, as I mentioned before, that was my major objection to 
the JCPOA--that it didn't really prevent Iran from having a 
nuclear weapon, it just postponed it 15 years.
    In relation to what we just mentioned, if the U.S. were to 
sanction companies in Asia for doing business with Iran, as we 
would be required to do under law, how would these sanctions 
affect U.S. strategy on North Korea?
    Ms. Harman. Well, I think that this action will hurt our 
ability to strike a better deal--what President Trump would 
consider a better deal, and we all would, with North Korea 
because they're watching, and if they think we don't abide by 
the deals we make, why would we abide by a much tougher deal 
with them?
    And I would just point out that I think it was a front page 
article yesterday and the Washington Post pointed out how tough 
it will be to administer any deal we make with North Korea.
    They have a much more advanced nuclear program than Iran. 
Iran had zero bombs. North Korea has, depending on how you 
count, up to 60.
    Plus, we should anticipate that they have deep tunnels all 
over the country which would be very hard to identify, and our 
intelligence on North Korea has been extremely poor up to now. 
We have, basically, no ground truth in North Korea.
    So taking this action this afternoon I think just made the 
North Korea deal which, by President Trump's standards, would 
be--and I agree--a crowning achievement of his presidency 
harder to achieve.
    Mr. Engel. Let me ask a question about Iran's permanent 
presence in Syria. Let me ask either Ambassador Bloomfield or 
Mr. Rademaker.
    How would you advise President Trump to approach the crisis 
in Syria after the fight against ISIS without U.S. influence 
and presence? Iran is likely to benefit.
    Yet, the administration, in my opinion, appears to be 
handing Syrian territory over to the Assad regime, negotiating 
de-escalation zones on Israel's border that could give Iran a 
permanent presence in Syria, and how would a permanent Iranian 
presence in southern and eastern Syria affect U.S. interests in 
the region and affect Israel's interests in the region?
    Ambassador Bloomfield. Thank you, Ranking Member Engel.
    The first point I would make is that the JCPOA, the nuclear 
agreement, dealt solely with the nuclear sector, and at a time 
when President Obama thought that the Iranians wanted to turn a 
page and reform, they didn't pay much attention to the human 
rights abuses at home that you mentioned and the activities in 
the region.
    Five years have passed. As I said, it's time to look at the 
non-nuclear side of Iran policy. In Syria, what has occurred is 
nothing short of the greatest war crime of the 21st century.
    Iran's Quds Force commands militia that I would estimate at 
60,000 or 70,000 inside Syria made up of Shi'a militia from 
several countries.
    The payroll comes from Tehran. The command comes from 
Soleimani. And he has 80,000 in Iraq as well. We've never 
addressed this point.
    I think that what Bashar al-Assad has done cannot pass 
without consequences. We should be building a war crimes 
tribunal case against the Assad regime.
    We should have had a defection program against the Syrian 
armed forces. We should have been making a lot of noise about 
Russia's reckless and promiscuous use of weapons that they give 
to the Syrians to bomb children and women. Over 27 hospitals 
were bombed when the Russians came in, along a cordon sanitaire 
around Damascus. Where was America's voice?
    So I think it's never too late to speak up for what is 
right and I think the Europeans would join us in putting 
together a series of political measures, informational 
measures, and put the spotlight on Iran's aggression and let 
the people of Iran know where all the money's been going, 
because it certainly hasn't been going to the people who are 
protesting in Iran today.
    Mr. Engel. Thank you.
    Chairman Royce. We go to Ileana Ros-Lehtinen of Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    Thank you to all of our panellists, all good friends.
    When this administration came in, it made clear that fixing 
the JCPOA was going to be a top priority. We knew from the 
outset that there was a lot of work left to do, much of which 
the administration very clearly outlined in January, as we've 
heard, when it said this was perhaps the last chance to fix it.
    The administration had simple and common sense requirements 
that everyone should have been able to support. But it isn't 
just what is in the JCPOA that the administration has rightly 
said needs to be addressed.
    Iran's other malign activities, which you have addressed, 
including its ballistic missile program, its support for terror 
around the globe, have largely been ignored by our P5+1 
partners ever since the nuclear deal was concluded, looking the 
other way.
    Despite years of diplomacy and despite assurances from 
official after official during the last administration that 
this would not be a problem, our European allies have been 
reluctant to join us in holding Iran accountable.
    The administration must succeed in getting our European 
partners to act on the need to address Iran's malign 
activities.
    Our European friends must agree that getting rid of sunsets 
that allow Iran to be a nuclear weapon state in just a few 
years is in all of our interests.
    But if, for some reason, our partners believe that it is 
more important for them to pursue their economic interest with 
a state sponsor of terror, then the President must reimpose 
sanctions on Iran or withdraw altogether from the accord.
    Should we not get tougher enforcement and verification 
measures and should we not get our partners to look at the 
totality of the Iranian threat, then we need to start looking 
at what comes next.
    We still have many tools at our disposal and it is clear 
that Iran will continue to give us every opportunity to 
sanction it for its illicit activity. It simply doesn't care.
    No matter whether we think the JCPOA is working or not, 
Iran is only getting stronger in the region as it expands its 
influence and becomes more capable of threatening U.S. 
interests.
    Just look at the Lebanon elections that took place a few 
days ago and those that are coming in Iraq this weekend.
    If we keep wishing and hoping that we are going to fix the 
JCPOA but nobody takes any action to do so, then we'll soon be 
in a far worse situation than when we started, if we aren't 
there already.
    We may need another way to ensure Iran's nuclear program is 
kept in check. As the chairman stated, the challenge is in how 
to get the Europeans on board and exert maximum pressure on the 
Iranian regime.
    So my question then--I probably will only have time for 
Ambassador Bloomfield--if the President does decide to walk 
away from the deal--I know that Congresswoman Harman already 
addressed this--do you envision the need for imposing secondary 
sanctions?
    Ambassador Bloomfield. My metric of success for foreign 
policy, Congresswoman, would be unity among the allies. If they 
are on board with us on what we bring forward then we have a 
chance of pressuring Iran.
    I want to point out that I don't think that Iran's Supreme 
Leader is acting from a position of strength at all. I think 
they are on thin ice at home. There were over 450 
demonstrations last month in a country one-fourth the 
population of the United States.
    Other Ayatollahs are sounding off against Supreme Leader 
Ali Khamenei. I believe a case can be made that they brought on 
the secret nuclear program not for military purposes but to 
give the Supreme Leader some status that he wasn't receiving 
from the Shi'a community in the Middle East.
    So they are trying to put on a revolutionary front for the 
people back home and it's not working.
    Ms. Ros-Lehtinen. And on the issue of secondary sanctions--
--
    Ambassador Bloomfield. So on the issue of secondary 
sanctions, if we lose the Europeans by going after their 
companies or any other companies in the world, the way to do 
that is to point out the suspicious sites.
    We can point out any site where we have credible 
information, and we can insist that the rest of the world 
support us in demanding inspection. But it has to be based on 
real information.
    Ms. Ros-Lehtinen. Thank you, and thank you to our excellent 
panellists.
    Mr. Chairman, I yield back.
    Chairman Royce. Thank you.
    Brad Sherman of California.
    Mr. Sherman. Thank you. I want to associate myself with the 
opening statement of the chair and the ranking member.
    A number who support the JCPOA have said that we should 
always regard the signature of the President of the United 
States as binding on our country--that the President gives our 
word and that word is binding on us.
    I would hope that Congress would reject that view. For 
example, this President might sign an agreement with Russia 
that said we will never base American soldiers in Poland or the 
Baltic.
    Unless that is approved by Congress, it should not be 
regarded as binding on the American people. So I think it is 
legal for the President to renounce the JCPOA. It's just a 
terrible idea at this time.
    It will meet the President's psychological needs. This 
agreement has the scent of Obama on it. It will meet, perhaps, 
his political needs. It is terrible statecraft.
    The President would be doing so in order to say he wants to 
sanction Iran. Just a few weeks ago, a bipartisan letter was 
sent to the President urging him to use the existing sanctions 
from 2010 to sanction those who give spyware to the Iranian 
government to suppress its people. He has not sanctioned a 
single company nor has his predecessor.
    It doesn't seem like the President wants to sanction Iran 
in order to sanction Iran. He wants to sanction Iran in order 
to desecrate a document signed by his predecessor.
    If we are going to renounce this deal, we have to ask what 
rights does each party acquire if the deal is voided.
    Well, Iran gets to go forward with its nuclear program. No 
inspectors, heavy water, unlimited centrifuges, and they can 
seek a return--I will get to this in a second--of the stockpile 
of fissile material that they shipped abroad under the deal.
    What do we get? Well, we know that sanctions can change 
Iran's behavior. There are many reasons to sanction Iran.
    Does voiding the deal allow us to impose sanctions we 
couldn't impose otherwise? Well, we know that voiding the deal 
angers Europe and Japan and makes it incredibly difficult to 
have effective multilateral sanctions.
    But some of us--well, many of were here when John Kerry sat 
at that table and told us that even under the deal, adhering to 
the deal, we can sanction Iran in full proportion to its non-
nuclear wrongdoing.
    They are responsible for hundreds of thousands of deaths in 
Syria, tens of thousands of deaths in Yemen. They stone people 
to death for who they love. If they had never have thought of a 
nuclear program we would be coming up with every possible 
sanction and if we said we are doing it because of Syria and 
Yemen we'd have European support.
    There are plenty of reasons to sanction Iran to change its 
behavior. Staying in the deal allows us to sanction Iran and 
have the hope and expectation of European and Japanese support. 
Voiding the deal liberates them and reduces the effectiveness 
of our sanctions.
    I don't even know why we are talking about this. But I, 
believe it or not, do have a question. This deal is the good, 
the bad, and the ugly. Good and bad at the beginning--it gets 
ugly next decade.
    The best part was that Iran shipped 16,000 pounds of low-
enriched uranium--a little bit of mid-enriched uranium--out of 
the country.
    They had the fissile material which, if further refined, 
could create several nuclear bombs. They shipped it to Russia.
    Ms. Harman, would Mr. Putin--if we voided this agreement, 
would he entertain a request from Tehran to return that fissile 
material which was shipped to Russia? Would he tease us? Would 
he return part of it in return for more control of Syria?
    How would we empower Putin, if he's sitting on 1,600 pounds 
of low-enriched uranium that he may or may not return to Iran?
    Ms. Harman. First of all, let me commend Congress for 
something it did last year by a veto-proof margin and that was 
to pass the sanctions law against Russia, Iran, and North Korea 
that dramatically increased sanctions against all three 
countries.
    And I think that law has been very effective and Congress 
did this on a bipartisan basis, so there is something to 
celebrate there.
    What would the newly sworn-in President of Russia do? He 
would make mischief. I am not exactly sure how he would do it 
but I think that is his MO and, oh by the way, there has been a 
vacuum in the Middle East as U.S. leadership, in my view, has 
reduced that has allowed Russia to increase its power in Syria 
and elsewhere to our detriment.
    So I think leaving the deal on a unilateral basis, if 
that's where this comes out, even if we do--and I hope we do--
waive secondary penalties that permit Europe and Iran to keep 
the deal--further isolates us and that that's a mistake in 
terms of U.S. strategy.
    Mr. Sherman. If the clock is accurate, I have time for one 
more question. But I am not sure it is.
    If we simply don't enforce the secondary sanctions and all 
we are doing is cutting off trade with the United States, would 
that be significant enough for Iran to withdraw from the deal 
if all they're losing is the U.S. caviar market?
    Ms. Harman. Well, I actually don't think so. But let's 
understand, it does have significant effects on at least one 
U.S. company. That would be Boeing, which has sold a number of 
airplanes to Iran, and I think that deal would be in jeopardy 
and thousands of jobs in various locations in the U.S. would be 
in jeopardy.
    So I don't understand--I think none of us understands what 
the advantage to the U.S.--and I think that's the point of your 
question is--from the way the administration seems to want to 
proceed this afternoon.
    We are all in favor of a better deal, and I think there is 
a path to get a better deal.
    Chairman Royce. We go to Chris Smith of New Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman, and thank you 
to this very distinguished panel for your insights.
    Let me just ask you--Ambassador Bloomfield, you talked 
about the payroll for the Quds Force of 60,000. Did any of that 
come from sanctions relief or any of the moneys that were 
conveyed and do we have an accounting yet as to how much money 
has actually gone from us and the Europeans to Iran and where 
that money has gone?
    Secondly, maybe all of you, quickly, your assessment of 
Netanyahu's disclosures--was that positive? Negative? Was it 
insightful? Did it give you something that you had not seen 
before?
    And then, finally, I met with Hua Qu, who's the wife of Xi 
Wang, who's a Princeton graduate student. I met with him for 
hours.
    She was practically in tears, talking about her husband, 
who has now gotten a 10-year sentence for espionage--absolutely 
trumped up, part of the ongoing campaign of Iran to incarcerate 
Americans in order to get some kind of benefit. Because it's 
trumped up.
    We know that Bob Levinson still remains unknown. You know, 
he's 70. He's got diabetes. He needs help. All of the 
Americans--and the green card members, as you mentioned, Ms. 
Harman--need help.
    And yet, we look at the Magnitsky Act. The last tranche in 
December had no Iranians on there. It seems to me we are 
missing an opportunity. We've got the Countering America's 
Adversaries Through Sanctions Act passed last year. There are 
tools.
    I hope the administration uses that. I think my friend from 
California a moment ago made a good point. I remember hearing 
John Kerry say all the other issues--human rights, you know, go 
all out on the sanctioning and yet, that seemingly has not 
happened with the previous administration or this one. Your 
thoughts on that as well.
    Ambassador Bloomfield. Thank you, Congressman. So let me 
start off by, first of all, making a recommendation. The first 
place I ever worked in Washington was the Congressional 
Research Service.
    I urge you to ask them to do a compendium of every law and 
norm that Iran has broken since 1979, as long as they don't run 
out of paper. It will be instructive to both sides.
    As for the accounting for funds, this is another piece of 
homework that I think the Congress, on a bipartisan basis, 
should ask for. Some say that up to 80 percent of the Iranian 
economy is controlled either by the religious foundations or, 
since 2005, by the paramilitary. They own the banks. They run 
the contracting. You can't get something big done without it 
going through them.
    So when we talk about whether to sanction an Indian 
company, a European company, an American company, I think 
that's the wrong way to enter the conversation.
    The question is, where is the money going, and if it's 
going to the people who are building ballistic missiles and 
shooting them into Saudi Arabia, if it's going into militia 
which are calling in air strikes on Syrian cities and towns, 
then that has to be an issue for us and the Europeans to sit 
down and say, ``You can't be doing business if the money is 
going to these individuals, these companies, these entities, 
and these organizations.''
    I think if we take it that way, if we ask the 
administration to work with Congress on an intensive accounting 
of where the money goes, I think the sanctions issue will sort 
itself out.
    Ms. Harman. Could I make a comment on human rights? Mr. 
Smith, you and I were in China together at the fourth U.N. 
Conference--I remember that--on Women, making similar points 
about human rights for women. It was a historic conference, and 
I applaud you for staying focused on that issue.
    As I mentioned, there are four U.S. citizens and two green 
card holders presently in Iran. I think this action by the 
President makes it harder for us to get them out.
    And this issue is really personal for the Wilson Center. 
One of our most famous scholars, Haleh Esfandiari, who's an 
Iranian American, was imprisoned in Evin Prison in 2007, and it 
took an international effort, in which I participated and I am 
sure you did, as Members of Congress, to get her out of that 
prison. She had gone home to visit her ailing mother.
    So we have to keep an eye on this. We have to think about 
ways in which we can help Americans who are unfairly detained 
there, especially those who are ill, and it seems to me that 
our strategy should include that as one of the goals to achieve 
in the near term, and I don't think this strategy to be 
announced this afternoon does in an effective way.
    Mr. Rademaker. Quickly, on the human rights issue, 
Congressman, let me just congratulate Congressman Sherman for 
recalling how Secretary Kerry and other officials of the Obama 
administration, at the time Congress was considering the JCPOA, 
emphasized that there was nothing in the JCPOA that would 
prevent Congress from enacting sanctions with respect to human 
rights violations, with respect to missile proliferation, with 
respect to other malign activities by Iran.
    Partly in reliance on those assurances, the agreement was 
approved under the legislative mechanism that governed the 
congressional review.
    But no sooner had that agreement taken effect then many 
officials of the Obama administration came to argue against 
imposing sanctions because it would be too upsetting to the 
Iranians and it might create problems for JCPOA implementation.
    And I think that's highly regrettable and I guess--I think 
with Congressman Sherman I would urge Congress to listen to 
what the Obama administration initially said, not what they and 
their alumni have said subsequently.
    Chairman Royce. Albio Sires of New Jersey.
    Mr. Sires. Thank you, Chairman, and thank you for being 
here. Welcome back, Congresswoman.
    I've been in this committee now the whole time I've been 
here--12 years--and it seems that we vote periodically on all 
these sanctions against Iran. But why does it seem to take so 
long to implement all these sanctions? I don't understand it. 
We just did sanctions on the generals that own sign (phonetic) 
business to see if we can get them to stop what they're doing.
    Why does it seem that it takes so long to implement these 
sanctions against Iran? Anyone?
    Ms. Harman. I think the----
    Mr. Sires. It's frustrating to me.
    Ms. Harman [continuing]. Both people to my right are 
perhaps more expert on this. But I don't think it takes that 
long.
    I actually think the sanctions have been very effective and 
economic sanctions as a tool of foreign policy is an asymmetric 
strength of the United States.
    In places where we impose them we generally get results. I 
would say North Korea is more interested in making a deal with 
us because of the sanctions and Iran was more interested 5 
years ago in making a deal because of the sanctions.
    Was it a perfect deal? Absolutely not. But imposing 
sanctions and continuing to impose them on Iran's malign 
behavior in the region, which is permissible, is the right way 
to go.
    Mr. Sires. Well, I don't oppose sanctions. I just wanted 
the sanctions that we pass here to be implemented quicker so we 
can be more effective, and that's my concern, not that I am 
against it. I mean----
    Mr. Rademaker. Since the subject is sanctions let me just 
make an observation about this. There are, basically, two types 
of sanctions that the United States--and by the United States I 
really mean Congress and by Congress I really mean this 
committee, because most of the Iran sanctions came out of this 
committee--there are two types.
    There's the primary U.S. embargo, which is restrictions 
that we've imposed by law on American citizens, American 
companies with regard to their dealings with Iran, and then the 
secondary sanctions, which are instances where Congress has 
said for people not subject to U.S. jurisdictions, so for 
foreign companies, foreign individuals we are going to sanction 
you if you do something with Iran.
    We don't have jurisdiction over you but we are going to 
deny you benefits under U.S. We are going to make your life 
difficult.
    And, not surprisingly, those secondary sections are highly 
controversial when they were enacted starting in 1996 under the 
Iran-Libya Sanctions Act. The Europeans were very upset about 
that. But they're also highly effective and they had a lot to 
do with getting the agreement that the Obama administration was 
able to negotiate.
    Under the JCPOA the United States was required to waive the 
secondary sanctions. And so when we are talking today about the 
President letting sanctions come back into force we are talking 
about secondary sanctions.
    The primary sanctions were never relaxed. The primary U.S. 
embargo on Iran has been in effect since the Reagan 
administration. It's still in effect today.
    So, Congresswoman, your idea of well, maybe the President 
should let the snap back occur but exempt the secondary 
sanctions, I think basically everything that's snapping back is 
secondary sanctions.
    So the way to avoid that is for him to exercise the waiver, 
which is what President Obama did and what he's done up until 
now, but he's saying he's not going to do that, going forward.
    There really are no primary sanctions that are snapping 
back if the President doesn't exercise the waiver.
    Ms. Harman. Well, just, if I may, Mr. Chairman, just 
respond to that. I was talking about with respect to Europeans. 
It's not to say that there isn't a broader point there.
    But if we don't have European allies, going forward, and we 
have a large trade war with Europe, I worry that not only our 
policy toward Iran but our policy in many areas of the world 
will be harmed and they may move ahead and align with others 
and leave us isolated.
    Mr. Sires. How likely is it that all the other members of 
the agreement are willing to alter parts of the agreement?
    Ambassador Bloomfield. If I could make a comment--if we are 
talking about secondary sanctions that say you can't trade with 
Iran, that's one thing, and I think that may get us in trouble 
with the Europeans and others.
    If, however, we look at how the Treasury Department, for 
example, cites individuals, entities, and what not, and we have 
intelligence that say, ``These are the people who are doing all 
the malign activities,'' then that's the conversation we have 
with companies and say, ``Your deal is through this front 
company or through this bank or through this holding company in 
Iran and they're the ones who our intelligence shows are paying 
for the Syrian operation.''
    So that's the conversation I would prefer.
    Mr. Sires. I was thinking when we did the financial 
sanctions that it seems to take forever to take effect. I am 
sorry. Go ahead, sir.
    Mr. Rademaker. Well, your question was how willing will 
foreign--I heard your question--how willing will foreign 
countries be to change the deal, and I just want to stress, 
President Trump has not asked for anybody to change the deal.
    I think, ultimately, he'd like to renegotiate it. But what 
he's calling for is a supplemental agreement that wouldn't 
change the deal but it would be a declaration of policy between 
us and the Europeans about what we'll do if Iran deploys 
missiles or tests missiles in a way that we find threatening--
what we'll do if they violate their sanctions--I am sorry, 
their inspection obligations, and I don't think that's 
controversial.
    And then, thirdly, with regard to the sunset clause, what 
our joint policy will be, starting in 2026. So he's not--he's 
not saying let's, you know----
    Mr. Sires. Well we don't need Iran.
    Mr. Rademaker [continuing]. That everybody agree to--it 
would be let's declare a policy about what we are going to--
what our countries will do, starting in 2026. But it's not a 
change to the JCPOA.
    Mr. Sires. Okay. I am out of time right now but thank you 
very much.
    Chairman Royce. We now go to Mr. Dana Rohrabacher of 
California.
    Mr. Rohrabacher. Secretary Bloomfield, do I call you 
Secretary?
    Ambassador Bloomfield. No. Call me Linc.
    Mr. Rohrabacher. Okay. There you go. You went through a 
litany of some of the things that Iran has been doing that are 
very disturbing throughout the region.
    Let us just note that what you're talking about costs a lot 
of money and what we are also talking about here is the Obama 
decision and as manifested in this treaty to provide $150 
billion to the disposal of the Iranian regime.
    And so everything that you just talked about can be traced 
back to a funding mechanism that we provided them.
    But I would like to disagree with you on one note. You kept 
noting how strong Iran is. The mullah regime that controls Iran 
is incredibly weak, and you mentioned that as well.
    You have had uprisings throughout that country, and I hate 
to sound like Cato the Elder. The mullah regime has to go. This 
is not an anti-Iranian statement. This is a pro-Iranian 
statement.
    The people of Iran hate the mullah regime. It is corrupt. 
It is brutal, and all we talk about are these periphery actions 
when we never mention and go right to the heart of the matter, 
which is we should be supporting those elements in Iran that 
hate the regime and will replace it with a more civilized 
government, which they all support.
    Iran is not our enemy. The mullah regime is our enemy, and 
while we are discussing this issue today, we should understand 
that. The last administration provided $150 billion to that 
mullah regime--not to the people of Iran, to that regime.
    Let's note that my colleague mentioned the Magnitsky Act. 
Just so everyone will know, I support the Magnitsky Act. I 
didn't support calling it the Magnitsky Act because I thought 
that particular case had yet to be proven.
    But the point is we have that power and, again, we have not 
designated any of the mullah regime gangsters to be punished by 
an act that we put forward and have passed in this Congress.
    So we've been inactive in anything aimed at the mullah 
regime but instead broadly attacking Iran. I don't believe 
that's a strategy that will work.
    Let me ask you--no one got around to the question about 
whether Netanyahu's briefing for the American people and the 
American government was a positive or a negative.
    Maybe I could have each one of the panellists just give us 
a very short on their reaction to Israel.
    Ambassador Bloomfield. Thanks, Congressman Rohrabacher.
    On the Netanyahu release of information, I think--from what 
I understand--I've not read it all--it demonstrates a serious 
program to build nuclear weapons and so then it calls into 
question what is the intention of the regime.
    I really think the United States needs to speak with one 
voice and stand united. So as a centrist, let me give President 
Obama his due.
    I think he was wrong in his assessment of Iran. In 2013, he 
quoted a fatwa from the Supreme Leader in front of the United 
Nations that they forbid nuclear weapons.
    Everything that Prime Minister Netanyahu has released 
suggests that the Iranians were never going to give up nuclear 
weapons--that they would keep the knowledge in perpetuity.
    So I think that there's an issue of intent and trust. Going 
back to what the chairman said, if I were advising President 
Trump, I would say whenever you get a message that comes from 
President Rouhani or Foreign Minister Zarif, the answer should 
be, I need to hear it from the Supreme Leader. He's the one and 
only decision maker. It's time for Iran to stop talking out of 
two sides of its mouth.
    Going back to your final point, Congressman, about the 
mullah regime, I am going to quote you from Grand Ayatollah 
Abdollah Javadi-Amoli. He is a source of emulation.
    He's a Grand Ayatollah in Qom. On April 27, he said, 
``Better beware that if the nation rises up the people will 
sweep us into the sea. Many have already fled or found a place 
to escape. But we have nowhere to escape to.''
    Mr. Rohrabacher. And there is our solution and we've 
ignored that over and over again to try to get around the idea 
that we are recognizing the mullah regime is not Iran and we 
should be supporting Iran and the Iranian people.
    Just really quickly, Israel's briefing--good, bad, 
positive? Should pay attention to it, not----
    Mr. Rademaker. I took it as further confirmation that Iran 
has had a long-standing interest in acquiring nuclear weapons 
and in that sense to me it didn't come as news because that's 
been my belief for a long time. But it does underscore the need 
to have a serious deliberate global policy to confront the 
challenge we face.
    Mr. Rohrabacher. Jane?
    Ms. Harman. I, too, always thought Iran's intention was to 
acquire a nuclear weapon so I wasn't surprised by it.
    But I would make two other points, one on regime change. I 
think we should be very, very careful, given the Iraq 
experience, and if the people of Iran who elected their 
government by more than 50 percent in a four-way field want to 
change their government, then let them do that.
    But I don't think calling for that from outside is going to 
improve the situation. That's my personal view.
    But final point on North Korea, North----
    Mr. Rohrabacher. Unless the people who support that--the 
calling down the regime--end up in jail, end up having their 
families beaten up----
    Ms. Harman. I think that is dreadful. That's a human rights 
issue and we should impose sanctions against those who do that.
    Mr. Rohrabacher. All right.
    Ms. Harman. But on North Korea, talk about their 
intentions--they built 60 nuclear weapons. So let us not be 
naive as we do a deal with them and I am in favor of doing the 
right deal with North Korea.
    Let us not be naive about their intentions.
    Mr. Rohrabacher. And we noted in Korea, we paid for that as 
well. We--again, another Democratic administration--I am sorry 
to sound political here--they insisted on paying money to a 
dictatorship in North Korea.
    They used the money to what, to put us in a position where 
they're building nuclear weapons again, probably with the money 
that we gave them.
    And one last thing--Netanyahu has given us an alarm bell. 
He's ringing the alarm bell. I am proud that our President 
seems to be listening to that. Looking forward to see if we act 
upon that alarm.
    Thank you very much, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Rohrabacher.
    We now go to Mr. Gerry Connolly of Virginia.
    Mr. Connolly. I thank the chair, and I thank the chair for 
holding this hearing on a day that I think is a very momentous 
day in terms of foreign policy in which the President is about 
to make a decision fraught with consequences and that could 
lead to the very thing we are trying to avoid--a nuclear Iran.
    The fracturing of our ability to have meaningful dialogue 
and agreements with our allies and with our adversaries--let us 
remember P5 included Russia and China.
    My friend from California, who chokes on criticizing a 
Democratic administration, nonetheless feels compelled to do 
so, wants to have us believe that the money released pursuant 
to the Iran nuclear agreement somehow was some kind of pay off 
for all kinds of evil things.
    Primarily, it was the release of funds that had been frozen 
pursuant to sanctions and I got news for my friend from 
California--you got to have carrots and sticks if you're going 
to have an agreement.
    If it's all carrots, I don't know what compels anybody to 
agree to anything, and most of that money was used to pay off 
huge debts the Iranian regime had incurred because of the 
plummeting price of oil and the effect of sanctions.
    Ms. Harmon, welcome back. So listening to Mr. Rademaker, 
you'd think the President's just kind of making some reasonable 
things here. I don't think our allies are going to be all that 
upset.
    Now, I don't know--correct me if I am wrong--I thought I 
saw the President of France speak before a joint session of 
Congress warning us not to do precisely what, apparently, 
President Trump is going to do this afternoon. Is my memory 
faulty on that?
    Ms. Harman. I don't think so. It's also true that 
Chancellor Merkel made a 1-day trip from Germany and that the 
foreign minister of Britain came yesterday to talk to a number 
of people. I guess the Brits thought that he would be----
    Mr. Connolly. All importuning President Trump and his 
administration not to do it.
    Ms. Harman. Right. But they also expressed a willingness so 
far as I know--and I think we are all in agreement here and I 
think most of the committee is--to enter into a side agreement 
that addresses problems that I think everyone here has with the 
deal.
    Mr. Connolly. Now, Mr. Rademaker also made the assertion 
that Obama administration alum--the ink was barely dry on JCPOA 
in terms of congressional action when they begged us not to 
impose sanctions on nonrelated nuclear activity.
    Is it not true that there was a lot of concern up here that 
some people who have been overtly critical of JCPOA turned 
around and introduced sanctions legislation that would have in 
fact unravelled the agreement because they dealt indirectly or 
kind of almost directly with sanctions that were covered by the 
agreement?
    Ms. Harman. Well, I think there was a lot of conversation 
about which sanctions should be imposed.
    Mr. Connolly. That's right.
    Ms. Harman. There was never any doubt that sanctions 
against Iran's malign behavior outside the four corners of the 
deal, which is just a transaction to freeze Iran's nuclear 
program.
    Mr. Connolly. And forgive me. I am running out of time. But 
pursuant to your point, many of us turned around and voted for 
the comprehensive sanctions you referenced in your testimony.
    Ms. Harman. Right.
    Mr. Connolly. Mr. Rademaker, let me--let me talk about 
compliance in the time I have left.
    In the agreement--the JCPOA agreement--Iran was required to 
go from 19,000 centrifuges to 6,104 at the old IR1 designation. 
Have they complied?
    Mr. Rademaker. So far as I am aware, they've complied with 
their obligations.
    Mr. Connolly. They have complied. On enrichment they have 
to go down a 3.67 percent for 15 years. Have they complied?
    Mr. Rademaker. So far as I am aware, yes.
    Mr. Connolly. Stockpile--they had to reduce their stockpile 
of enriched uranium from 10,000 kilograms to 300 kilograms and 
ship it out of the country. Did they comply?
    Mr. Rademaker. So far as I am aware, yes.
    Mr. Connolly. Mm-hmm. Reprocessing--they won't conduct 
reprocessing or reprocessing research on spent fuel, and that's 
indefinite. Have they complied?
    Mr. Rademaker. So far as I know, yes.
    Mr. Connolly. Fordow--have they stopped enrichment at 
Fordow?
    Mr. Rademaker. I believe they have.
    Mr. Connolly. You believe they have. On the Natanz again, 
they were required to limit the amount of centrifuges for 
research and the level of enrichment and, again, returning 
models to an earlier generation. Did they comply?
    Mr. Rademaker. I can save you time. I think they've 
complied with all their agreements.
    Mr. Connolly. Well, let me just run through it because, you 
know----
    Mr. Rademaker. All their obligations.
    Mr. Connolly [continuing]. I am trying to pay attention to 
your testimony here. I am trying to find flaws in their 
compliance.
    Iraq, the plutonium production reactor, they're required to 
concretize their reactor and redesign and rebuild the heavy 
water research facility. Did they comply?
    Mr. Rademaker. I believe they have.
    Mr. Connolly. Are you aware of any inspection of a nuclear 
facility they have not complied with?
    Mr. Rademaker. No, I am not aware.
    Mr. Connolly. No. And has the IAEA and the international 
community certified 11 different times they are in full 
compliance with the agreement?
    Mr. Rademaker. The IAEA has not found any fault with this.
    Mr. Connolly. And were there six Presidential 
certifications including with President Trump saying the same?
    Mr. Rademaker. Yes.
    Mr. Connolly. Yes. I rest my case.
    Chairman Royce. We go to Joe Wilson of South Carolina.
    Mr. Wilson. Thank you very much, Chairman Ed Royce, for 
having this very important hearing today and thank all of the 
witnesses for being here.
    And, Ambassador Bloomfield, to amplify further your view, 
Prime Minister Benjamin Netanyahu recently had a revelation of 
Iran's secret nuclear archive, highlighting the limits to the 
IAEA inspections.
    The archives were apparently unknown to IAEA and other 
nuclear sites may have been similarly unknown.
    I believe that President Donald Trump is being correct that 
the Iranian nuclear deal is dangerous to American families and 
to our allies of Israel.
    Considering the information located in these archives, 
should the IAEA reopen its investigation into the possible 
nuclear dimensions--PMD--of Iran's nuclear program?
    What other steps should the IAEA make to address the 
concerns raised by these documents hidden by the Iranian 
dictatorship?
    Ambassador Bloomfield. Thank you, Congressman.
    I think we have to wait and see what details come out of 
the information that the prime minister of Israel has released 
and other information that may be available to us.
    The point that I wanted to make is that, while the Iranians 
came to the table and said certain things can be inspected and 
certain things cannot be inspected, that if we find what's 
known as plausible information, under their language, that 
there may be nuclear-related activity--it may not be fissile 
material that's detectable through nuclear machinery--it may be 
designs for warheads, how to marry it with a ballistic missile, 
how to make the missile hit a target and to do what we've done 
with our ICBMs--that kind of research could be happening 
anywhere and more likely is under the control of the Islamic 
Revolutionary Guard Corps--which is a possible military 
dimension and would be on a military site.
    So if we have any kind of plausible information, we have 
every right to go to the Europeans and together go to the IAEA 
and say, we have to inspect this.
    And as I pointed out earlier, you can't get to the end 
point of the JCPOA--the broader conclusion at the end of 
several years that Iran is peaceful in intent unless you answer 
those questions.
    So we should focus on detection, investigation, inspection, 
verification and be more relentless than we have been.
    Mr. Wilson. And I appreciate your emphasis on verification.
    And Mr. Rademaker, how would you characterize Iran's 
current ballistic missile capabilities and what would you 
expect the trajectory of their continuing missile development 
to be if they're not impeded by sanctions or other diplomatic 
measures?
    At this point, what needs to be done to safeguard against 
the ballistic missile threat to Europe today and as they're 
targeting America tomorrow?
    Mr. Rademaker. Yes. Well, Iran has a very active ballistic 
missile program and over time they've been increasing the range 
of their ballistic missiles I believe with the ultimate goal of 
deploying intercontinental ballistic missiles, which would be 
missiles that could strike the United States.
    I think a critical point that needs to be made, and I think 
this connects back to what Prime Minister Netanyahu revealed, 
it makes absolutely no sense for Iran to have an ICBM if it 
doesn't have a nuclear weapon.
    Missiles of that range--I mean, first, they're not going to 
be very accurate and even if they were accurate, I mean, 
they're not going to do that much damage.
    You have ICBMs like we do to attack your adversaries with 
an atomic warhead, and so the fact that they're continuing to 
pursue these longer-range missiles I think speaks to their 
ultimate intentions.
    They wouldn't be doing this if they did not ultimately have 
the intention of putting a nuclear warhead on the top of that 
ICBM.
    Mr. Wilson. And hey, for a diplomat, I appreciate that you 
were very clear that ICBMs and nuclear weapons are tied 
together and just simply can't be separated.
    And I appreciate that we've actually had bipartisan 
cooperation. Congressman Seth Moulton and I had an amendment to 
the NDAA to ask for analysis of the ICBM capabilities of Iran.
    And Congresswoman Harman, thank you to have the alumni 
return. The current estimates that Iran has provided Hezbollah 
$800 million annually for their efforts, and they actually now 
have 150,000 missiles in southern Lebanon--a threat--and the 
capability of building missiles. So the threat is almost 
incalculable.
    Following the elections last week in Lebanon, what can we 
do to promote a moderate influence in Lebanon?
    Ms. Harman. Well, let me say two things.
    On the missile capability of Iran, it is worrisome, and 
it's not just that they, over time, if this deal somehow ends, 
can put miniaturized warheads on top of missiles but they can 
also proliferate the missiles.
    And let's understand that there has been proliferation 
between Iran and North Korea, which now has a highly advanced 
missile capability.
    In the '90s when I served on the House Armed Services 
Committee, I worked with Former Senator Jon Kyl to try to block 
Russian technology transfers to Iran, which occurred at the 
time, which made their missile capability more effective.
    So that's one very sad chapter in U.S. history. On this 
question, I am worried about Hezbollah. I mentioned the 
Lebanese election.
    Hezbollah ran in the election. It had candidates for 
Parliament and it increased its seats by at least one but plus, 
apparently, five other seats from another party are technically 
under--in the Hezbollah orbit.
    So not only does it have some political participation in 
the Lebanese government but you are correct about the missile 
placement in southern Lebanon and we've already seen one war 
between Lebanon and Israel where Hezbollah managed to lob a lot 
of missiles from basements of civilian houses along the border. 
Those were not very smart missiles. Now the missiles are 
smarter and have longer range. So it's very, very worrisome.
    Mr. Wilson. Again, thank you all for being here today.
    Chairman Royce. We got to Ted Deutch of Florida.
    Mr. Deutch. Thank you, Mr. Chairman, and thanks to our 
witnesses for being here.
    Mr. Chairman, we have three thoughtful witnesses, all of 
whom provided distinguished service to our country and 
government.
    We have a chairman and ranking member of this committee and 
a good number of members of our committee on both sides of the 
aisle who are quite concerned about Iran--Iran's nuclear 
program and Iran's activities--destabilizing activities in the 
region.
    And for an awful lot of us there is consensus that if the 
President chooses to walk away from the Iran deal--a deal that 
I opposed but have repeatedly said needs to be strictly 
enforced--the President walks away, we abdicate American 
leadership in all of the areas where Iran poses an immediate 
threat to us, to our allies, and to our security interests.
    So I would just ask our witnesses, going through each of 
these, if I may, again, the idea being how do we retain 
American leadership. We can predict what Iran might do or not 
if the President chooses to not certify, to withdraw.
    We can predict the inclinations of our allies might be. But 
I want to talk about what we can do to help lead those allies 
and if the President goes in one direction what can the rest of 
us--what can Congress do to continue to play that role?
    So on ballistic missiles, for example, on this we heard 
over and over throughout the negotiation of the deal that the 
deal didn't cover ballistic missiles.
    The President today if he wanted to could impose even 
tougher sanctions with respect to ballistic missiles in Iran. 
Isn't that right, Congresswoman Harman?
    Ms. Harman. Yes, that's right, and should the deal have 
covered ballistic missiles? Of course. If they had been able to 
strike that deal it should have.
    Should it have been term limited? No, it shouldn't have 
been.
    Mr. Deutch. Right.
    Ms. Harman. Should it have addressed Iran's other malign 
behavior? Yes, it should, and it still could, if this side 
agreement were entered into.
    But can I just make one other comment?
    Mr. Deutch. Of course.
    Ms. Harman. And that is the need for an authorization to 
use military force. I think that Congress can finally construct 
the strategy that has been missing from everything we've been 
doing in the region.
    The Obama administration didn't have a strategy either. 
They did a transaction. That's what this deal was, and other 
transactions as well--some correct, some less correct.
    But Congress has a storied history of being able to hold 
hearings and get the American people engaged to understand the 
trade-offs in a larger U.S. role and I think that would be a 
huge service.
    Mr. Deutch. Right. I think it's the most important foreign 
policy debate that we should be having on the floor of the 
House that we're not. I couldn't agree with you more.
    On ballistic missiles, if we are going to be serious about 
ballistic missiles, don't we want our European allies to work 
with us to impose sanctions against Iran, Mr. Rademaker?
    Mr. Rademaker. I think absolutely we do and, in fact, I 
think the agreement that the Trump administration has been 
trying to negotiate with the Europeans, one of the three 
elements was to address ballistic missiles.
    Mr. Deutch. So--right. So let's just go through that for a 
second because I think there's been confusion, and I would just 
like to sort this out.
    The fact is for the very real concerns we have about Iran's 
behavior, this is not just about whether the Iran deal is a 
good thing or a bad thing or whether Iran is complying with it 
or not.
    The fact is that while Iran complies with the nuclear deal, 
they continue to hold Americans hostage. They continue to 
develop ballistic missiles. They continue to support terror 
throughout the region.
    And so that deal that we've been working toward that 
perhaps the President may find some opportunity to push for one 
last time, just to be clear, doesn't violate the terms of the 
nuclear deal, does it?
    If we give, with our European allies, a very clear signal 
about what will happen, as several of you have pointed out, at 
the end of this deal so that the sunset clause may be a sunset 
under the deal but we make clear with our allies that we will 
not allow Iran to develop nuclear weapons, something that we've 
said.
    So why would that be a violation of the deal? It wouldn't. 
Ballistic missiles were not part of the deal. Why wouldn't we 
work with our allies to make clear what we will not accept 
right now in terms of threats to Europe and the United States?
    And on inspections, again, if--instead of arguing back and 
forth over how we interpret the inspection regime that's in the 
deal, why wouldn't we make clear with our allies that if we 
believe we need to get onto a military site then we are going 
to work with them and if access is blocked it is Iran's fault 
and Iran is then in violation of the deal, from our 
perspective?
    How are any of those unreasonable?
    Mr. Rademaker. Congressman, I don't think any of those 
things are unreasonable. I think we would want to work with the 
Europeans on all those issues.
    I do think of the three issues that we are--and here I am 
going to defend the Europeans, which I haven't done much of 
this morning--I think of the three issues that were under 
discussion with the Europeans, two of them were not hard, as I 
understand it, for the sides to reach agreement on on the issue 
of inspections and on the issue of ballistic missiles.
    Where--the sticking had to do with how to address the 
sunset clause.
    Mr. Deutch. Well--yes, Ambassador Bloomfield, I have just a 
second.
    Ambassador Bloomfield. Thank you. Sorry to go overtime.
    But I believe ballistic missiles were implicated under the 
JCPOA agreement. There was a 2010 U.N. Security Council 
resolution that prohibited Iran from engaging in ballistic 
missile development which was lifted 6 days after the agreement 
was reached in June 2015 in favor of recommendatory language 
that was nonbinding----
    Mr. Deutch. Right.
    Ambassador Bloomfield [continuing]. And Iran immediately 
started testing missiles. And just so you know, Secretary of 
State Kerry said, oh, there must be a mistake here--let's have 
a new arrangement.
    Foreign Minister Zarif called his complaints ``baseless.'' 
Defense Minister Dehghan called them ``nonsense.'' In other 
words, off they went.
    We've been threatened by the head of the IRGC to hit all 
U.S. troops within 2,000 kilometres if they feel like it.
    So I think we have every right to defend ourselves and to 
work the with Europeans to push back on their program.
    Mr. Deutch. I greatly appreciate all our witnesses being 
here.
    Mr. Chairman, I hope that whatever the President does today 
at 2 o'clock I hope he will keep in mind that the most 
important thing for us to do to stand up to Iran's malign 
behavior is to retain American leadership and I worry that he 
will take an action today that will weaken American leadership. 
That puts all of us in a weaker position.
    I thank you and I yield back.
    Chairman Royce. Thank you, Mr. Deutch.
    Mr. Mike McCaul of Texas.
    Mr. McCaul. Thank you, Mr. Chairman, and good to see the 
witnesses, especially my former colleague. Jane, nice to see 
you.
    I travelled with my former colleague, Mike Pompeo, to the 
Middle East. Met with Netanyahu. We talked about the Shi'a 
Crescent--Iraq, Syria, Lebanon, coming out of Iran.
    And at the time we were talking about this Iran deal we 
were opposed to it for a couple of reasons, all of which are 
being negotiated in this E3 agreement.
    He and I didn't think the inspections were sufficient 
enough. It didn't include military sites where most likely 
that's where they would build a nuclear weapon.
    The ICBM capability was not addressed. I asked Secretary 
Kerry right here why that wasn't in the deal and he simply said 
it just couldn't be done.
    Sunset provisions have been talked about and the terror 
financing, from a chairman of the House Homeland Security 
Committee standpoint, hundreds of billions of dollars 
unleashed, and now look what we have.
    So we are in a bit of a dilemma, I think. I think this E3 
agreement was a good idea. I was hopeful it would happen. I 
know the sunset provisions were a problem in reaching a 
consensus.
    But I think the question is--well, a couple. I mean, my 
understanding is Iran would have to agree to this as well.
    Do you think if the E3 reached an agreement with the United 
States that Iran would join in that agreement?
    Mr. Rademaker. So the sunset clause is a problem and I 
actually think the Trump administration came up with a clever 
way to address that problem, because implicit in your question 
is, would Iran ever agree to eliminate the sunset clause?
    They might agree to it but not for free and I will talk 
about that in a moment. I talked about it in my prepared 
remarks.
    But the Trump solution, at least what he's been trying to 
negotiate with the Europeans and what he asked the Congress to 
do is forget about the Iranians--we'll just declare what our 
policy is going to be once the sunset clause kicks in.
    They don't have to agree to that. We just declare this is 
what we are going to do, and what we are going to do is we are 
not going to threaten to bomb them as some people say we should 
threaten, although maybe--we don't necessarily not threaten to 
do that. But the threat we will bring to bear is the threat 
that we'll impose economic sanctions if they enrich uranium in 
a way that would get them a very short breakout capability.
    No need for the Iranians to agree to that. So all it 
requires is the agreement of the three governments in Europe. 
So realistically achievable concept, I think.
    Now, while we are talking about negotiations, though, I 
predicted in my initial statement here that before this 
administration is over I think President Trump probably is 
going to negotiate with the Iranians because he's negotiating 
next month with the North Koreans.
    And among those who have argued that the President should 
not allow or should not walk away from the JCPOA, many have 
said, well, what he should do is negotiate the problem of the 
sunset clause with Iran.
    I think there will be such a negotiation but as things 
stand today, we are going to have to give them something to 
give up on the sunset clause.
    The only thing I think realistically we have to give them--
well, we could write them enormous checks. Okay. We could give 
them a bunch of money. I don't think we are going to do that. 
The other--so the other thing----
    Mr. McCaul. Well we sort of are yes. I've got a minute and 
a half. So----
    Mr. Rademaker. The other thing we could give them is relief 
from the primary embargo----
    Mr. McCaul. Okay.
    Mr. Rademaker [continuing]. Which is what we imposed 
because of their support for terrorism and so we could trade 
our policy--our counterterrorism policy for concessions from 
them on their nuclear program.
    The question I ask in my prepared statement is then what's 
left of our antiterrorism policy if we've given away our 
primary embargo in order to get additional concessions on----
    Mr. McCaul. I agree, the sunset clause--I mean, that's the 
big sticking point. But is it better to get out entirely or do 
we want to extend the deadline on these negotiations rather 
than pull out completely?
    Ms. Harman. I think that everyone shares the goal of--
except, perhaps, Iran--of extending the deadline.
    But the question we are all raising is what's the best way 
to achieve the goal, and pulling out or at least decertifying 
the deal today is not the best way to achieve the goal.
    And I would just make one other point, which is 
negotiations are tough. Each party has to give up something to 
get to a deal. I am sure that John Kerry and others would say 
they wanted a stronger deal than they got.
    They got the deal that they got and, as a mother of four, I 
know that perfection is not an option. You have got to 
negotiate with your own kids to get a little--to get some 
progress and----
    Mr. McCaul. And I have five.
    Just one last question--I worry too, Jane, that it will 
shift attention away from Iran and put it on the United States. 
That's one of my concerns from a foreign policy standpoint.
    Finally, you talk about congressional inaction and if we 
can't reach this E3 agreement that perhaps Congress should take 
action and deal with this issue head on, whether it be with 
sanctions or, as you mentioned, the AUMF, and I would like to 
get your thoughts on that.
    Ms. Harman. Well, I mentioned the AUMF a couple of times 
because I think Congress is AWOL and Congress should be doing 
this, and the 2001 AUMF that most of us who are here voted for 
it seems to me doesn't apply to this situation at all, and a 
future with a renuclearized Iran or Iran building the bomb it 
stopped building is one that will require some kind of military 
response.
    So I want Congress to set the contours.
    Second point, though, what is our strategy in the Middle 
East? What do our allies perceive our strategy is? I think it 
should be working, as we've all said, with Europe, who are in 
this deal in the first place, and hopefully with China and 
Russia, too, to contain nuclear developments in the region.
    And if a result of this is that the Saudis or others decide 
to build a nuclear weapon and the Saudis could acquire 
technology from Pakistan, or at least that's the rumour, I 
don't think the Middle East becomes more stable.
    So there are very serious problems, it seems to me, with 
pulling out, as might happen today.
    Mr. McCaul. Thank you so much.
    Chairman Royce. Yes. I think, for the record, in response 
to one our members' earlier points, the International Atomic 
Energy Agency is in fact currently unable to verify the 
provision relating to--and this is from Section T--``activities 
which could contribute to the design and development of a 
nuclear explosive device,'' and Russia, of course, says they 
have no obligation to do so.
    With that said, I should go to Karen Bass of California.
    Ms. Bass. Thank you. Thank you, Mr. Chair, and I want to 
thank all of our witnesses here today.
    I guess--well, my colleague just showed me that the New 
York Times is now reporting that President Trump told the 
President of France that he is going to withdraw.
    So assuming that, I just wanted to know if you three could 
each really paint the picture of what this looks like.
    For example, Ambassador and Mr. Rademaker, how specifically 
would you propose to ensure that Iran is prevented from 
developing a nuclear weapon when it's no longer in effect, 
assuming that that's--again, what the New York Times is 
reporting is accurate? Where do we go from here is the 
question.
    Ambassador Bloomfield. Congresswoman Bass, I have already 
testified that I believe there are some downsides which we 
should avoid and whatever happens I think I want to give the 
President a chance to make his announcement.
    It appears that there are some subtleties--that it may not 
be something that we can summarize in one sentence.
    My hope is that whatever--the metric of success of a 
foreign policy is whether it is strategically credible--whether 
the leverage is against Iran and Iran's nuclear breakout and 
not against us and not dividing Republicans, Democrats, 
Americans, and Europeans. We should be one team. We should have 
a policy that goes beyond the nuclear domain to the non-nuclear 
domain, which everyone has acknowledged today.
    So I think wherever we go from here there's a lot of past 
pieces that have been brought up, some with regret. We have to 
move forward.
    And if I may--I know your time is valuable----
    Ms. Bass. Yes.
    Ambassador Bloomfield [continuing]. I think we need a 
better analysis of what Iran is all about. The Supreme Leaders' 
followership in the Shi'a Crescent may be extremely weak.
    The Supreme Leaders' readiness to come forward and 
negotiate with the American President----
    Ms. Bass. Okay.
    Ambassador Bloomfield [continuing]. Or present himself may 
be nonexistent----
    Ms. Bass. All right. I do need to move on.
    Ambassador Bloomfield [continuing]. So we need to analyze 
who we are dealing with.
    Ms. Bass. Mr. Rademaker.
    Mr. Rademaker. You ask a very good question. I do think we 
need to all bear in mind our President believes that, above all 
else, he is a negotiator. He wrote a book about ``The Art of 
the Deal.'' He wrote a book about that.
    Ms. Bass. Well, he hasn't demonstrated that so far, but go 
right ahead.
    Mr. Rademaker. But so, I think what is going to happen this 
afternoon, well, technically what happens if he announces that 
``I am not exercising any more waivers'' then on, I believe, 
Saturday of this week, May 12th, one of the U.S. sanctions laws 
will snap back into effect and it's the one called Menendez-
Kirk. It was the first sort of oil sanctions--financial oil 
sanctions.
    Well, the other sanctions don't snap back into effect until 
July and so I think there's a good chance what we'll hear from 
the President is I am letting this one law snap back into 
effect but the real deadline now is July, right.
    Let's negotiate against a July deadline because that's when 
the other sanctions snap back into effect, and I hope I am 
right about that because what I want to see here is a 
negotiated solution with the Europeans. I don't want to----
    Ms. Bass. Okay.
    Mr. Rademaker [continuing]. See us go back to a sanctions 
realm and I just hope that----
    Ms. Bass. Okay.
    Mr. Rademaker [continuing]. The President's psychology 
probably lends itself to that.
    Ms. Bass. And Congresswoman, perhaps you could continue to 
explain that. I mean, if the sanctions snap back that impacts 
Europe, doesn't it?
    Ms. Harman. Well, yes. I am hoping that there won't be a 
snap back and my colleagues might ask then what will he be 
announcing.
    He'll be announcing the fact that he's unhappy with the 
deal, which we've heard before, but that he's waiving its worst 
effects.
    And I am still hoping that what this entire committee seems 
to want--surely I do and I think all of us want--is a side deal 
gets negotiated with our European partners and that becomes the 
basis over time of improving the deal.
    But I think it would be a big mistake to blow up the deal 
totally or blow up the U.S. role in the deal. Even if Iran 
stays in the deal that would have the effect of isolating us.
    Ms. Bass. So how do you pull out of the deal and then put 
it back together and then have a side deal? I don't--you know 
what I mean?
    Ms. Harman. Well, I think it takes a lot of legal 
maneuvering. But I think there is possibly a way to thread the 
needle and I am sure he's looking at it in terms of stating his 
intention, not recertifying it. Remember, he said he didn't 
want to recertify it last time. But having its effects be 
minimized against our European partners, perhaps not our Asian 
partners--I think that would not be the wisest course but 
perhaps that's the way he will go.
    Starting a major trade war right now with Europe and 
possibly in June, as I mentioned in my testimony, also allowing 
these proposed tariffs on steel and aluminum to be in effect 
against Europe is a huge, I think, mistake.
    Mr. Rademaker. I think--to the extent you're asking a 
technical question--if he allows the sanctions to be reimposed 
how does he get out from under that if he later changes his 
mind--and actually the answer to that is very simply he will 
still have the waiver authority.
    So if sanctions could snap back into effect but if an 
acceptable deal is negotiated at some point thereafter he can 
just exercise the waiver authority again and restore the 
situation that exists today.
    Ms. Bass. Yeah. I don't know----
    Mr. Rademaker. I will be surprised if this afternoon he 
doesn't--I would be surprised if he closes the door to 
negotiations.
    I would expect him to say, I am doing this because we 
haven't gotten satisfaction in the negotiations but I am still 
here. I still want to negotiate. I still hope--you know, and--
--
    Ms. Bass. And so the problem is none of us know what he's 
going to do from day to day. That's the problem.
    Thank you.
    Chairman Royce. We go to Lee Zeldin of New York.
    Mr. Zeldin. Well, thank you, Mr. Chairman. Thank you to all 
the witnesses for your service
    Mr. Rademaker, one of the comments that you made with the 
questioning with Mr. Connolly you said you believe--your 
understanding is that Iran has complied with all of their 
obligations.
    We are aware, though, that the IAEA has found them twice to 
be over their heavy water limit, right?
    Mr. Rademaker. That's correct. That was a problem that the 
Obama administration solved by buying excess heavy water from 
Iran.
    Mr. Zeldin. Yes. So that was one of the violations, I just 
want to correct the record on a few different items, and I 
don't want to embarrass anyone here but just a few components 
that are important to point out with regards to Iran's 
compliance or lack thereof.
    So Annex 1 Paragraph 61 of the JCPOA states, ``Iran will 
only engage in production of centrifuges to meet the enrichment 
R&D requirements.''
    Iran has acquired more than the necessary amount of IR8 
centrifuge rotor assemblies for R&D purposes with 16 times more 
capacity than the IR1 to enrich uranium.
    With regards to exceeding IR6 centrifuge allowance, as part 
of the JCPOA an enrichment research and development plan was 
submitted to the IAEA that permitted, roughly, 10 IR6 
centrifuges.
    Iran has assembled 13 to 15 IR6 centrifuges, which should 
have been limited or destroyed under the plan.
    With regard to conducting mechanical testing of advanced 
centrifuges in violation of the JCPOA Iran has exploited the 
conditions governing the quality assurance of advanced 
centrifuges to conduct mechanical testing of advanced 
centrifuges.
    With regards to refusing IAEA access to military sites, 
under Annex 1 Paragraph 76 of the JCPOA, the IAEA can request 
access to military locations such as Parchin to verify 
compliance.
    The Iranian regime has made crystal clear before, during, 
and after the negotiations that they will not allow access to 
any of their military sites.
    With regards to possessing chemically manmade particles of 
natural uranium, in September 2015 Iranian officials granted 
limited access to the IAEA inspectors at the Parchin facility.
    The environmental samples revealed chemically manmade 
particles of natural uranium. The IAEA did not pursue an 
explanation.
    The IAEA director general stated that the agency wants Iran 
to fully implement the JCPOA which, by implication, covers 
Section T, as was referenced by our chairman of Annex 1 of the 
JCPOA, which prohibits any activities that could contribute to 
the development of the--of a nuclear explosive device.
    It should be noted that when we went to Parchin and we 
noticed that there were some particles consistent with what 
they are not allowed to have, they did not allow further access 
to their site following that.
    So we were not actually allowed to get our inspectors there 
to follow up on those--on those particles.
    So I just wanted to correct the record on those few things.
    Mr. Chair, I have 2 minutes. Do you want me to yield to you 
for the remainder?
    Chairman Royce. No. No, that's quite all right. Go ahead 
with your line of questioning if you wish.
    Mr. Zeldin. Okay. So I would just add a couple of quick 
points then. One is I am deeply troubled by the activities of 
the Secretary of State--Former Secretary of State John Kerry. 
He's no longer the Secretary of State and his activities right 
now really are deeply troubling.
    He wasn't very good when he was the Secretary of State. He 
shouldn't be acting like one still today. There was some back 
and forth earlier with regards to ransom and the payment that 
was made, and that was money that was owed to the Iranians.
    But the part that was left out was that that money had to 
be given to the Iranians in cash simultaneously with the 
release of American hostages.
    So, that part--again, just completing the record from an 
earlier exchange--was left out. This was money that was owed. 
This wasn't ransom. In order to release the hostages, money in 
cold hard cash had to arrive in pallets simultaneously in order 
to release the hostages.
    I have 30 seconds left. Anyone--did you want to respond, 
Mr. Rademaker, to the earlier point?
    Mr. Rademaker. Well, since I was the one who was sort of 
dragged into conceding that Iran is in compliance with the 
JCPOA, let me just observe, I think you pointed to some 
potential technical violations.
    But big picture--my view has always been that the JCPOA is 
such a great deal for Iran that they would have to be out of 
their minds to cheat on it.
    Now, that doesn't mean we shouldn't scrutinize them because 
they've cheated on plenty of agreements in the past--they might 
be tempted to cheat on this one.
    But rationally--the rational thing for them to do is comply 
fully, comply scrupulously, and then reap the dividend of the 
sunset clauses starting in about the tenth year because then 
they'll be able to have everything they want. So why jeopardize 
that by cheating to gain some small advantage today when they 
get enormous advantages by operation of time?
    And, we are almost 2\1/2\ years into the agreement at this 
point. So we are a quarter of the way to them being able to 
reap all the benefits.
    So the closer we get to the 10 years, which is January 
2026, the less incentive they'll have to cheat because they 
just wait a little bit more time and they won't have to cheat.
    Mr. Zeldin. Yes. Important points. Thank you for mentioning 
all of them. I think, in a way, Iran can't help themselves but 
to cheat and to test the limits and see what they can get away 
with.
    But I just--I need to correct the record because it was--it 
has been stated way before today's hearing by many people that 
Iran has not violated the letter of the JCPOA and we could 
debate over how significant one might think all the violations 
are. But it's just inaccurate to say Iran has not violated the 
letter of the JCPOA. There actually have been many different 
violations of the letter.
    Thank you, Mr. Chairman.
    Chairman Royce. We go now to Bill Keating of Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman.
    You know, most of the attention today will go with the 
President's decision to pull out of the agreement. I wish there 
was more attention on this hearing because I do believe 
Congress has a role. This committee has a role, a major role, 
and if you listen to this morning's testimony you'd see, 
generally speaking, bipartisan agreement that pulling out is 
the wrong approach and has consequences that are going to be 
deleterious and there's room to go and I just want to talk 
about a few of those things.
    Now, people cavalierly just say, well, 8 years and they can 
do whatever they want. Well, that's not true under the 
agreement. There are limitations that are for 10 years, 15 
years, 25 years, and permanent limitations. Those are in the 
agreement.
    Now, the sunset issue is one that there are some 
restrictions on this, going forward, limitations on this. And 
our approach to this and to the inspections issue, which 
Secretary Mattis said, in his own words, ``pretty robust 
verification''--his words.
    So the inspection process is enforcing these limitations 
under the sunset. We should take a policy with our allies of 
extremely and aggressively pushing inspections, certifications.
    That is already at our disposal if we work together and 
work hard, and if they're violating it that coalition coming 
together can make adjustments themselves and that's where we 
should be going with this.
    Now, there are issues with the ballistic missile program 
and the activities of the Quds Force--the malign activities of 
the Quds Force.
    But within that coalition--and independently we can deal 
with that--but working with the coalition we can be more 
effective dealing with those issues.
    And here's my point--by pulling out--and I've talked to the 
leaders in the other countries--there's no surprise here--
they're staying in, our allies, and the division that that's 
going to cause is just going to undercut our ability to do what 
I just said--aggressively enforce what's there. Stand together 
and make sure that's being done. That's being ripped apart with 
that.
    Can you comment on the real harmful effect of us being able 
to enforce this strongly as a coalition being undercut by this 
pulling away from the agreement?
    Ms. Harman. Well, I am not sure if that's addressed to me 
but I totally agree with the comments and I think I've tried to 
make the point several different ways.
    You also made a point that I hadn't mentioned yet, which is 
that Former Secretary of Energy Ernie Moniz, who was a key 
negotiator here--he was the actual nuclear scientist in the 
room--claims that a number of provisions in the deal are 
permanent.
    For example, he says that because of the way we track 
plutonium production Iran will never be able to--never, not in 
10 years, not in 15 years, not in 25 years--ever be able to 
produce a plutonium weapon which is a--certainly, a form of 
nuclear weapon that has devastating consequences and that some 
other provisions, as you said, last more than 10 years. So----
    Mr. Keating. And I would agree with you, Secretary Moniz, 
and any scientist will tell you that we are concerned about 
inspections----
    Ms. Harman. Right.
    Mr. Keating [continuing]. And the 28-day delay. That 
material is around for a lot longer than we are going to be 
here and it's totally detectable. So that delay is not going to 
hurt our ability to do it.
    That's in there, in the agreement as well. So there are 
things in here that we can deal with and work together with and 
maybe expand the issues that surround it. But we have to do it 
with that coalition that was so successful. We can't do it 
alone.
    Ms. Harman. And--right. One of the real selling points of 
the deal was the P5+1--the fact that it's the permanent members 
of the U.N. Security Council plus Germany, and that includes 
China and Russia.
    And the fact that we could get to a deal even if not a 
perfect deal--I made the point before----
    Mr. Keating. I am in my last minute so I am sorry--I 
apologize to interrupt but you just mentioned something else 
that's important.
    Right now in Russia Putin has had a pretty good week with 
his ceremony being reinstalled as their leader. This really 
completes his week.
    This division with the West is exactly what Russia has been 
gearing toward and continues to undercut a coalition that's 
been there since the end of World War II that's brought more 
peace and prosperity to this world than any other time period. 
He's trying to undercut it quickly.
    Putin must be having a pretty good laugh about this 
happening right now, don't you think?
    Ms. Harman. Yes. I was asked what are his intentions and I 
said to make mischief.
    Ambassador Bloomfield. If I could answer, Congressman, 
since I am from Massachusetts--I think one of the deficits here 
is that we didn't really focus on Russia's interest in the P5+1 
negotiation.
    Here he was sitting on our side of the table and somehow 
the arms embargo got lifted for conventional weapons. I used to 
be in charge of arms sales in the State Department.
    And suddenly old deals were being carried out, deliveries 
were being made, and now he's got a new market for the Russian 
arms industry. We've never really commented on that and that's 
a bit of cynicism.
    They weren't exactly in the same place strategically that 
we were with the Western Europeans. So that's a problem.
    I also think, though, that it's important to give a 
political explanation for what was happening at the negotiating 
table on the Iranian side. We've been talking about what they 
can do in 8 years, 6 years, et cetera.
    That's true. But what they really did was to transition 
from being an illegal outlaw nuclear rogue state to being a 
legal nuclear power.
    That was the big thing. It already happened. They became 
fully legal in 2015-2016. So I personally--and I go back to the 
things I've said before--don't look at this regime in Tehran as 
sort of planning for 2026.
    They're trying to get through 2018, and I think that 
knowledge, that sensibility, could help us come together on a 
policy on Iran that puts leverage and pressure on them to back 
off and looks at their vulnerabilities.
    Mr. Keating. Well, thank you. I yield back.
    Chairman Royce. Okay. We are going to go to Ann Wagner of 
Missouri.
    Mrs. Wagner. Thank you, Mr. Chairman, for this timely 
hearing. I want to also thank the witnesses for their service.
    When the last administration signed its very flawed nuclear 
deal with Iran, many hoped that the economic incentives would 
entice Iran to leave its destabilizing violent agenda behind 
and to join the community of responsible nations.
    I, quite frankly, never shared that optimism. Nearly 3 
years later, Iran's behavior remains deeply disturbing. Iran's 
support for Assad and for terrorist groups throughout the 
region compromises U.S. interests and, frankly, the security of 
our allies.
    It is absolutely critical that the United States use its 
strength and its economic clout to hold Iran accountable for 
its proxy army of terrorist groups and extremists militias.
    Ambassador Bloomfield, U.S. policy makers see factionalism 
in Iranian domestic politics as kind of a ray of hope. But you 
have criticized Washington's long-standing kind of naivete in 
this regard and I agree. Wishful thinking has impaired policy 
makers' ability to assess the Iranian threat with clear eyes.
    Dissenting factions within Iran have yet to succeed in 
modifying the regime's behavior abroad, it seems. However, 
that's not to say that meaningful change can never happen.
    Can you assess here briefly the long-term possibilities for 
internal reforms in Iran, please?
    Ambassador Bloomfield. I will. Thank you very much, and I 
agree with all of your comments, Congresswoman.
    There are several countries in this world which are one-
party authoritarian states--Russia, China, Syria, North Korea, 
Iran.
    These are circles of power that have similarities, even 
though the culture is different. They never intend to lose 
power.
    This regime has been in power for nearly 39 years. It's the 
same people. Some of them become hardliners and then 10 years 
later they're reformists.
    I am not saying that they are all identical drones. No 
human race produces people who agree on everything. We fight 
about politics in Washington. They fight about politics in 
Tehran.
    But if the people push hard enough and complain about the 
economic deprivation, the lack of rights, the abuse, the 
executions--more than 50 percent of the executions in the 
Middle East are Iranian executions--the Tier 3 trafficking in 
persons, how they're hanging people from ropes for trafficking 
drugs but we are catching IRGC 18-wheelers in Europe with 
drugs.
    Mrs. Wagner. Right.
    Ambassador Bloomfield. And so there's so much that could be 
said about what they've done. If this ever catches up to them, 
not one of the reformists--not one of the moderates--can walk 
down the street and not be told, ``You were part of the 39-year 
reign of terror.''
    So I think they all know that. Everything that they do is 
to stay in power, and I think when you start with that piece of 
wisdom, and consider the JCPOA, they came to the table maybe 
because of economic duress.
    But let me just say that even if we hadn't given them all 
that money, they have huge oil reserves. They share one of the 
largest gas fields on the planet.
    They have tens of billions--upwards of 100 billion, 
probably, in the religious foundations. The issue is not 
whether we are giving them the money, although I know it upsets 
people. The issue is, they have the money.
    They're just not spending it on the people, and that's a 
fight between the Iranian people, 80 million of them, and this 
circle of clerics that has held power for 39 years.
    Mrs. Wagner. I appreciate that perspective very much and 
appreciate it being in the record.
    Mr. Rademaker, I haven't seen the preannouncements of the 
President's announcement but let's just say that the President 
does decide to either reimpose sanctions or walk away from the 
Iranian deal at this point.
    How can we use it to our advantage to perhaps strengthen 
his hand in the North Korean denuclearisation talks? Do you see 
any way, shape, or form in doing that?
    Mr. Rademaker. That's an interesting question. The 
conventional wisdom--and I think we've heard it expressed here 
today--is that walking away from the JCPOA makes it harder to 
strike a deal with North Korea because they'll assume that 
President Trump can't be trusted to honor commitments that the 
United States makes.
    I think there's a lot to be said for that argument. But I 
think that's probably not President Trump's analysis.
    I think probably his analysis is the opposite--that it will 
be a signal of strength and determination that he sends to the 
North Koreans--that by walking away from a deal that didn't 
adequately address the nuclear threat from Iran he's showing 
them that he's going to settle for something that's inadequate.
    Now, I think a lot of people would disagree that that's the 
effect but I do think actually----
    Mrs. Wagner. I think it is. I will say this. I believe that 
it is America's strength. I believe it is the maximum pressure 
campaign.
    I spent some time in the Korean Peninsula and on the China-
North Korea border and I do believe that our strength, the 
sanctions package, has brought players to the table, especially 
Kim Jong-un, and it'll be interesting to see what dynamic this 
has I think going forward.
    So Ms. Harman, please--Congresswoman.
    Ms. Harman. If I just might add to that, though, as Linc 
Bloomfield just said, regime survival is hugely important to 
the Iranian regime.
    I think regime survival is just as important to the Kim 
regime in North Korea, and they've been in power for 70 years 
and presided over the most atrocious human rights abuses and so 
forth. We all agree with that.
    So if they're interested in regime survival, why would they 
voluntarily give up a pretty highly-developed nuclear industry 
to a goal of denuclearization? Why----
    Mrs. Wagner. Because their people are suffering. Their 
people are starving. Their people are under such oppression 
from both the human rights and economic standpoint.
    I believe that's why--certainly why North Korea has come to 
the table.
    Ambassador Bloomfield, do you agree? No? Good.
    Ms. Harman, please. You can finish up.
    Ms. Harman. Just to respond, I think the regime is 
responsible for a lot of that starvation----
    Mrs. Wagner. It is.
    Ms. Harman [continuing]. And deprivation of rights, and I 
think if it gives up its nuclear weapons and allows for an 
entry into the normal world by North Korea, it risks its 
survival. I am not making that case. I don't want that to turn 
out to the be true.
    But I am saying from the perspective of the Kim regime, I 
think they will be reluctant to now restore or provide for the 
first times rights to their people because they could easily be 
overthrown.
    Mrs. Wagner. Thank you for your perspective.
    Mr. Chairman, I appreciate the time and I will yield back.
    Chairman Royce. Okay. We go to David Cicilline of Rhode 
Island.
    Mr. Cicilline. Thank you, Mr. Chairman. Thank you to our 
witnesses.
    I think the President's behavior in this context is 
dangerous. It is undermining the security of the United States 
and our interests around the world.
    His antics demonstrate a tremendous lack of understanding 
of the implications of withdrawing from this agreement and 
using this deal as a rhetorical wedge for political gain and 
playing a will he, won't he game of certification is a 
distraction from the very serious issues including keeping our 
ally, Israel, safe, combatting terrorism in the region, having 
a strategy for success in Syria, and opposing Iran's various 
malign activities throughout the region.
    And while we are dithering about certification of sanctions 
waivers and bullying our European allies, the Iranians, in 
concert with Russia and Syria, have set up a sphere of 
influence that stretches from Tehran to Damascus.
    The New York Times is now reporting that the President is 
actually going to reimpose all the sanctions, and so this hope 
that somehow he was going to be a great negotiator--we were 
just going to add to the deal, Mr. Rademaker, doesn't seem very 
likely.
    And it's not the language the President has been using. 
He's been talking about it being the worst deal in the world 
and he's going to fix it, and what he's going to do is 
undermine our ability to really provide leadership in 
responding to Iranian aggression around the world.
    Many of us saw making certain that nuclear weapons were off 
the table would actually enable the United States to lead an 
effort to really respond to the malign behavior of the Iranians 
in various parts of the world and their effort to really 
enlarge their sphere of influence.
    All of that is thrown out now. It's hard to imagine how 
anyone will be willing to work with the United States in 
developing a real strategy to do that when we aren't keep our 
word in this international agreement.
    So I know, Congresswoman, you have mentioned this in your 
testimony. We are in the middle of this discussion about 
denuclearizing the Korean Peninsula.
    If you're Kim Jong-un and you're watching this and thinking 
oh, here was an international agreement led by the United 
States in which they promised to give up their nuclear program 
in exchange for certain things.
    Everyone admits they have complied with the agreement. This 
idea of, like, well, maybe not with the spirit--it's just not 
true. Everyone who has reviewed it said they are in compliance. 
When you have an agreement, you have terms. You either comply 
with them or you don't.
    And so I just wonder what it means in terms of our ability 
to actually resolve another very difficult question on the 
Korean Peninsula when we have some challenges now with our 
partnership with our allies as a result of this walk away 
coupled with some credibility as to whether we'll keep our 
word.
    So, Congresswoman, I would love your thoughts on that.
    Ms. Harman. I think that if President Trump can reach a 
strong deal with the North Koreans he will deserve enormous 
credit. That will be huge, as he discusses it, and I give him 
credit all the time for making North Korea the first focus of 
his foreign policy.
    So I am all for a strong deal with the North Koreans and I 
am all for the conversation which will take place soon 
somewhere.
    But I do think, as you said, that decertifying this deal or 
at least in some way pulling away from this deal is going to 
make it harder to negotiate with the North Koreans. I just made 
that point.
    I think that the Kim regime in North Korea has regime 
survival as its first tenet--not helping its people but regime 
survival--and it figures that by doing a deal that will welcome 
it back into the community of nations it will enhance its 
ability to survive.
    I also think a second goal is somehow unifying the Korean 
Peninsula, which could be achieved because South and North 
Korea are finally talking to each other and may finally end the 
Korean War, which has never had a formal end.
    So those goals are achievable but by watching what happens 
today they may be fading farther away on the horizon.
    Mr. Cicilline. Thank you.
    The other question is there are mechanisms that are 
available to the administration today under the Global 
Magnitsky Act as well as CAATSA.
    Now, whether any of the witnesses know how many Iranians 
are being sanctioned under those two provisions currently?
    You know, this idea of, like, we already have these 
vehicles and is the administration making use of them. Does 
anyone know? Are there any?
    Ambassador Bloomfield. I don't know the answer to that. It 
appears that we don't know but----
    Mr. Cicilline. All right.
    Ambassador Bloomfield [continuing]. But I would say that 
our military leaders have constantly said that all tools of 
national power should be mobilized in support of U.S. policies 
and I am not sure we are quite there yet.
    Mr. Cicilline. Yeah. Thank you.
    And finally, I know there has been some discussion about 
what I would put in quotes as ``evidence'' submitted by Prime 
Minister Netanyahu last week about the prior intentions of the 
Iranians some--almost two decades ago.
    It was clear to everyone who was studying that deal that 
that was information that was known to U.S. intelligence 
agencies, known to negotiators.
    In fact, if we didn't have some believe that they were 
intending to do that we wouldn't need the JCPOA. So this was 
not any surprise to anybody on the panel, I take it?
    Ambassador Bloomfield. Can I respond to that, please?
    Mr. Cicilline. Sure.
    Ambassador Bloomfield. First of all, I am a centrist and I 
like bipartisanship. And in that spirit, if we go back to the 
beginning of the nuclear talks, I am not as hard on President 
Obama for seeing an opening when the Iranians reached out to 
see if we could reduce their nuclear threat and maybe move 
relations to a better place.
    He went before the United Nations and he not only said we 
want to negotiate a nuclear agreement but in 2013 the President 
also said we would like to see if we can follow a path to 
better understanding between the two countries.
    What we have is the answer from Iran. It's 2018. We have a 
different President. We have the nuclear agreement. That was 
done.
    But the rest of it--Iran's intentions, Iran's nature--has 
been revolutionary. It has been to export and foment trouble, 
to try to destroy the ability of the Syrians to get to a 
constitutional government.
    With the Iraqis that we bled and died for to have a 
constitutional government, they have committed sectarian 
warfare to undermine that, because the next stop is Tehran. 
That's my view.
    So I think it's appropriate for this President to say, 
``Wait a minute--this isn't enough.'' Now, I don't know what 
he's going to say about the JCPOA.
    My own view is that it only talks about part of the 
problem. If there's no restraint, we have a crisis. If there is 
restraint, let's move to the rest of it, and that's what I've 
tried to explain today.
    Mr. Cicilline. Thank you.
    Congresswoman.
    Ms. Harman. If I could just add a comment to that. I 
applaud the statement, but let's remember what the deal was. It 
was a transaction to get Iran to stop its development of 
nuclear weapons for a finite period of time. That's it.
    It was not a transformation of the relationship. That was 
aspirational and, sadly, those aspirations did not come to 
pass.
    But my view is we should still keep the transaction and 
negotiate a stronger transaction, meanwhile, working with our 
allies to keep the whole area more stable through an 
authorization to use military force, which Congress could 
enact.
    Mr. Cicilline. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Royce. Mr. Tom Garrett of Virginia.
    Mr. Garrett. Thank you, Mr. Chairman, and I want to say to 
the three honorable and distinguished members of the panel that 
I apologize in advance.
    As a junior member, I am going to covetously guard my 5 
minutes. I won't get six or seven.
    So I want to start, Ms. Harman, with a comment that you 
made. If the people--and I quote verbatim--``If the people of 
Iran who elected their government by more than 50 percent in a 
four-way field want to change their government let them do 
it.''
    Are you implying that there are free and fair elections in 
Iran?
    Ms. Harman. No.
    Mr. Garrett. Okay.
    Ms. Harman. But I am implying that----
    Mr. Garrett. I am going to covetous--I am not trying to be 
rude and I respect your immense service to this body. But I 
want to be clear, because the Iranians watch these hearings, 
right.
    So the Guardians Council approves individuals who wish to 
run for office in Iran and, as an example, 496 individuals 
wanted to run for President in 2009. Four were approved. So 
it's not so simple--regime change--as winning an election, and 
I don't want to--and, again, not meant to be disrespectful.
    I want to read from the comments of my colleague, who I 
think was nearly prescient when he wrote in 2015 the following: 
Now, under U.S.--now as the law--under U.S. law the only thing 
that's binding on the U.S. is a tree that's designed as a 
treaty. So it says it's a treaty submitted to the Senate for 
ratification, it gets two-thirds positive vote. This deal is 
not a treaty. It has no standing under U.S. law except as a 
handshake from the President.
    I continue from my colleague--the Vienna Convention of Law 
of Treaties provides a hierarchy of agreements.
    This deal is not a ratified treaty. It's not an unratified 
treaty. It's not an executive legislative agreement. It's the 
lowest form of international handshake.
    So I continue from my same colleague: You can be sure that 
Iran will violate this agreement or not, based on whether it's 
in their interest, whether they think they'll get caught. No 
one around the Ayatollah will say no, no, that would be a 
violation of international law.
    And so I want to thank my colleague, Mr. Sherman, because I 
think he's really been sort of omniscient as it relates to 
foreseeing what happens.
    Mr. Rademaker, do we know, to a metaphysical certainty, 
that Iran is in compliance with the terms of the JCPOA?
    Mr. Rademaker. No, I don't think we----
    Mr. Garrett. And, again, not trying to be rude. I got a 
finite amount of time.
    And we don't know that because military sites are off 
limits to inspections, correct?
    Mr. Rademaker. They've declared that they will be off 
sites. There's been no request to inspect military----
    Mr. Garrett. And if there is an inspection request, how 
much time do the Iranians have to prepare?
    Mr. Rademaker. I am not sure, but they would have--they 
would have some time. The bigger question, though, is are there 
other sites that we don't know about at all that we don't to 
inspect.
    Mr. Garrett. That would be the next question. And initially 
contemplated was 24 days to prepare. My colleague, Mr. Sherman, 
very humorously but I think accurately said, ``I could clean 
out my garage in 24 days.''
    And so, again, I commend him for sort of being--having 
foresight.
    Let me ask you this. Linc--because that's what you said 
somebody to call you--is a nuclear-armed Iran consistent with 
the rhetoric from the mullahs an existential threat to entities 
in the region as well as the nation state of Israel and, 
depending upon the delivery mechanism, an existential threat to 
millions and millions of people in the United States?
    Ambassador Bloomfield. As a technical physical matter, of 
course it is.
    Mr. Garrett. Okay.
    Ambassador Bloomfield. I've already explained why I think 
they need it for political reasons more than military reasons.
    Mr. Garrett. I understand, again, and I know I am sort of 
limiting these questions but I am limited in time.
    Does Iran have a documented history, Mr. Rademaker, of 
violating international agreements?
    Mr. Rademaker. Well, when it came to--in the nuclear area 
they have a long history of deception and cheating on their 
international obligations with regard to nuclear safeguards.
    Mr. Garrett. And my good friend and colleague, Mr. Engel, 
pointed out that the--well over $100 million--in previous 
statements that there are well over $100 million that we 
released to Iran would go to fund activities that the Iranians 
have engaged in for perpetuity to include Hamas, Hezbollah 
wreaking havoc in the region and globally.
    Can anyone on the panel, just for my own sort of 
intellectual curiosity, name a single terrorist entity other 
than Hezbollah, which is a wholly-owned subsidiary of the 
Iranian government which has the dubious distinction of having 
murdered people on every single inhabited continent? Can 
anybody, or is Hezbollah--are the Iranians the only ones?
    Australia? South America? So I suppose, in conclusion, Mr. 
Rademaker, would you feel better about this agreement as was 
indicated by my colleague, Ms. Frankel, as well as Mr. Deutch 
and Mr. Sires in 2015, if the inspection were more robust?
    Mr. Rademaker. Certainly.
    Mr. Garrett. Would each of you feel better about this 
agreement if the fungible moneys weren't freed to Iran that 
have historically gone to fund radical elements that murder 
people across the globe, quite literally, like Hamas, 
Hezbollah, et cetera? Ms. Harman, I saw you reaching for the 
button.
    Ms. Harman. Of course I would.
    Mr. Garrett. And so if we can maintain some agreement and 
yet get a stronger agreement as it relates to things like 
ballistic missile technology that would, in the estimation of 
all folks on the panel, be a step in the right direction?
    Ms. Harman. Absolutely, but the question we raised is 
whether the President's anticipated action this afternoon helps 
or hinders that goal.
    Mr. Garrett. Well, Ms. Harman, I will wrap up.
    Again, with complete respect for everybody on the panel, I 
would read from my friend and colleague, Mr. Deutch, who wrote 
in 2015, ``Many of my colleagues are trying to turn this into a 
partisan fight.'' People of good faith can disagree. Honestly, 
they should stop.
    We do not know what the actions of the President will be 
circa 2:00 p.m. this afternoon. I will be completely candid in 
speaking for or against them once I understand what they are.
    But in the meantime, trying to score political points, I 
think you'd all agree, is a bad idea and we can do a little bit 
better with this thing that has been referred to as a deal and 
an agreement but not a treaty and it is indeed within our legal 
purview to attempt to do so by virtue of the nature of the 
underlying agreement.
    Is that not correct, ma'am? Anybody?
    Ms. Harman. Yes, it's correct, and this committee, on a 
bipartisan basis has stated a general position, which I 
certainly would commend and I commended at the outset of my 
testimony the bipartisanship, the long history of it--of this 
committee. I think it's an exemplary part of the House.
    Mr. Garrett. The only thing I would submit, and not to poke 
at you at all, is that we should not judge what the President 
is going to say before he said it.
    That's all. Thank you, Mr. Chairman.
    Chairman Royce. Thank you. Thank you very much, Mr. 
Garrett.
    Lois Frankel from Florida.
    Ms. Frankel. Thank you, Mr. Chair.
    Mr. Schneider, thank you for still being here because it's 
usually just myself and the chairman at the end.
    All right. So there is a benefit to lasting a couple of 
hours of the hearing because there's always something 
happening, which is I got a news alert that Russia opens the 
door to rework Iran deal.
    Apparently, their foreign minister just said that they're 
interested in the French proposal. I don't know what that 
means. I just thought I would bring that out. Maybe I will ask 
a question about it.
    So, listen, here's the point that we all agree. First off, 
thank you for being here. I know we all agree, everybody, that 
Iran should never get a nuclear weapon, and there's no conflict 
between believing that and those of us who agree that the deal 
was flawed.
    I personally did not like the deal because I thought Iran's 
dangerous actions were left unaddressed, the sunset clauses and 
so forth--all these things that are still pressing.
    With that said, I think we need to fix, not nix, and I--as 
much as I disagree with this President on almost everything, I 
really--even though he's going to today say he's going to 
impose sanctions--apparently he's going to impose all the 
sanctions back--I really--I find it hard to believe that he's 
really going to do that. Maybe it's diplomatic chess.
    But here's my question. I hope that's what it is. From a 
practical point of view, first, I wanted to ask you this. Let's 
say he imposes sanctions--reimposes them.
    How long does it take to get them--the consequences, which 
I think he's trying to get to, which is a better deal--so from 
a practical effect, what does the administration have to do to 
make the imposition of the sanctions actually work? What are 
the next steps?
    Ambassador Bloomfield. It may be, Congresswoman, that 
they've already done some homework on this and so it's very 
hard to predict. I think the bureaucracy will work very hard 
and probably very well.
    The effect will be immediate. The rial--the Iranian 
currency--is very weak right now and dropping. A news flash at 
2 o'clock from Washington that the President is unsatisfied 
with this regime's behavior will resonate throughout the 
country and out of fear people just not knowing what the 
sanctions will do will have a negative effect on their 
currency.
    Ms. Frankel. Okay. So what do you think is the risk of them 
starting up the--to try to have a nuclear weapon that actually 
is effective?
    Ambassador Bloomfield. Could I just, for the record, point 
out that in January, before the Israeli Knesset, Vice President 
Pence made a ``solemn promise'' that the United States will 
never allow Iran to have a nuclear weapon. That's a check we 
have written--this administration has written.
    That's why in my testimony I suggested perhaps the 
President should enshrine it as a doctrine. We hope that Iran 
will agree not to develop a nuclear weapon under these 
arrangements.
    But if they do, this is a promise that the Obama 
administration also made. This is bipartisan. We have said they 
will never have the bomb.
    Well, we have to hold to that. That's a red line.
    Ms. Frankel. Ms. Harman, 1 second before you answer the 
question, okay, let me--okay, answer that question because I do 
have another one. Go ahead.
    Ms. Harman. Well, I think it has always been U.S. policy at 
least as long as we've worried about Iran. First it was U.S. 
policy that they could not--should not--it certainly was my 
view, get intercontinental ballistic missile technology and 
transfer it to others. They did get that. That's the point.
    But I think the Obama agreement, as we have discussed, was 
transactional and it should--if it remains in effect in some 
effect, that would be a positive.
    What I was going to say is that one of the downsides of an 
announcement that we are leaving the deal is the reaction of 
our allies.
    Let's understand this deal is much more effective because 
we had three European countries plus China and Russia in the 
deal, and what happens next? Maybe some new mischief from 
Russia is going to be fascinating. But we probably will not be 
in the driver's seat.
    Ms. Frankel. What do you think the actions will be by Iran 
and do you think there's any possibility that they would agree 
to a new agreement--a new add-on?
    Mr. Rademaker. So I don't even know yet what the 
President's going to announce at 2 o'clock. So it's hard for me 
to----
    Ms. Frankel. I am assuming he's going to announce the 
worst. I don't know whether he'll follow through but----
    Mr. Rademaker. Assuming the United States reimposes 
sanctions that's a breach by the United States of its 
obligations under the JCPOA, then as a legal matter Iran, if it 
wants to walk away from its obligations, it's entitled to do 
so. Whether they will do that or not, I don't know.
    They may benefit politically by playing the aggrieved party 
and continue to comply and asking for compensation in other 
areas. That would be a shrewd clever strategy on their part.
    Would they be open to a new negotiation? You know, I think 
absolutely, and the--you should read my prepared statement on 
this. I talk about what negotiations on a follow-on agreement 
would look like.
    From today's baseline, if the baseline is the JCPOA and we 
are asking Iran to make additional concessions, they're going 
to naturally say, well, what are you prepared to give us in 
exchange and what I point out in my testimony is the main thing 
we have to give them in exchange is relaxation or elimination 
of our primary embargo.
    In other words, we promise, okay, we are going to stop 
treating you like an economic pariah. American companies, 
American individuals will be able to trade with Iran in the 
future just like any other country.
    That would be a good deal for Iran. But then my question, 
which I asked in my prepared statement, is what's left of our 
counter terrorism policy because----
    Ms. Frankel. Right.
    Mr. Rademaker [continuing]. We imposed those sanctions to 
stop them from supporting Hezbollah, to get them to back off 
from their commitment to destroy Israel.
    And if we decide to rehabilitate them, turn them into a 
normal nation because they make some additional concessions in 
the nuclear area, what's left of our efforts to stop them from 
supporting terrorism?
    Ms. Frankel. Right, and----
    Mr. Rademaker. And that's the question----
    Ms. Frankel [continuing]. And you can't--how can you 
renegotiate--can't in 5 minutes? It doesn't take 5 minutes to 
get a deal. We need to try to stop their terrorism, and I am 
just worried what they're going to do in the meantime.
    Chairman Royce. All right. We go now to Mr. Brad Schneider 
of Illinois.
    Mr. Schneider. Thank you, and I want to thank the chairman 
and the ranking member for having this hearing and, like my 
colleagues before, I associate myself with your remarks.
    I want to thank the witnesses both for staying here and 
sharing your perspectives but also for your past service to our 
country.
    About eight witnesses ago--because we now have instant 
alerts on our watches--New York Times reported that the 
President is going to withdraw, moments ago, Haaretz is 
quoting, France is denying that President Trump told Macron 
that they're going to withdraw.
    So I think we are at a point where we have absolutely 
clarity from this. But I think where there is clarity and, 
among the committee and on both sides as well as the witnesses, 
we talked about that there's agreement Iran should never ever 
have a nuclear weapon.
    That was true before the JCPOA. It is true for the terms of 
the JCPOA and I believe it should be true after elements of the 
JCPOA sunset.
    Ambassador Bloomfield, you, in your written testimony, 
talked about the fact that the United States has the ability--
and I believe it should and I felt this way before the JCPOA--
we should make clear that we will never ever allow Iran to have 
a nuclear weapon--not now, not during the terms of this 
agreement, not afterwards.
    Is there anything preventing the President or, for that 
matter, Congress from making that statement?
    Ambassador Bloomfield. I am not aware of any nor was I 
aware of any when President Carter called the defense of the 
Persian Gulf a vital interest to the United States. These are 
things that Presidents do.
    Mr. Schneider. And I think that would be true long, long 
into the future.
    Earlier, there was talk about compliance--Iran's compliance 
with the nuclear arrangement and that there weren't flaws in 
the compliance.
    I just want to make clear--my issues with Iran's compliance 
or flaws at the moment it's when there are sunsets. The flaws, 
I believe, are within the deal. And I believe that, like any 
deal, there are inherent risks in the JCPOA. I believe there 
are gaps in the JCPOA and, particularly, with sunsets and some 
of the other issues there are flaws.
    But I also think it's important that we recognize that the 
JCPOA has bought us time. In fact, Gadi Eizenkot, in January 
2016--the chief of staff of the Israel Defense Forces--said 
that we need to use this time to develop a strategy and create 
the leverage.
    We've pushed Iran back for a year for up to 15 years. 
That's a good thing. But we have to keep Iran back and 
permanently away from a nuclear weapon.
    Does pulling out of the deal now create any more leverage? 
I will look to you, Mr. Rademaker, if you can touch on that.
    Mr. Rademaker. President Trump may calculate that 
negotiating some follow-on agreement from the baseline of the 
JCPOA is a losing proposition because the only thing we have to 
give them is additional sanctions relief of our primary embargo 
and he doesn't want to do that.
    So he wants to change the baseline. That's sort of how I 
interpret what he's been doing.
    Can I comment on this related issue, though?
    Mr. Schneider. Yes.
    Mr. Rademaker. Declaring a policy that we are not going to 
allow Iran to have a nuclear weapon--I mean, look, that sounds 
right. Let's declare it.
    But you need to answer the question, what are you going to 
do about it, okay. If they--and I think the implication of this 
declaration is we are going to attack them, okay--that we will 
attack Iran if it gets close to having a nuclear weapon. I am 
fine with that declaration. Okay.
    But what President Trump has been asking for, what he asked 
the Congress to legislate and what he asked the Europeans to 
agree to was not join us in threatening to attack Iran.
    He said join us in threatening to impose sanctions on Iran 
if they get close to having a nuclear weapon.
    The Europeans said, oh, no, no, that might upset the 
Iranians--we can't do that. Legislation to do that stalled in 
the Senate----
    Mr. Schneider. If I can----
    Mr. Rademaker [continuing]. And I guess, you know, if 
you're going to declare this policy you got to put some teeth 
in it and if----
    Mr. Schneider. Fair enough.
    Mr. Rademaker [continuing]. The only teeth are the threaten 
to--we are going to threaten to attack them, that's safe--
threatening to oppose sanctions on them, that's dangerous, I 
don't----
    Mr. Schneider. Well, let me reclaim my time because in your 
testimony you talked about we either accept it or reject it. I 
don't believe we should accept the flaws. I think there are 
things we can do to close the gaps, reduce the risks, and try 
to fix the flaws.
    But I don't think it's either-or. I think there's a 
sequence, and I think what we need to do is say how do we put 
pressure on Iran to change its behaviors--change its behaviors 
around ICBMs, change its behaviors around their efforts to 
expand within the region--change its behaviors on support of 
terror and human rights, and that should be a full-throated 
across-the-board pressure.
    But behind that there also, I believe, has to be ways to 
box Iran in and the credible threat of military action has to 
be a part of that.
    We said before all options--all options have to be on the 
table. But most importantly, within that, I believe, we need to 
create strategic options--create leverage for the United States 
to force Iran to change its goals, to understand that we are 
not going to accept a nuclear Iran and that means working with 
our allies, maintaining the relationship and, as my colleague, 
Mr. Deutch, said earlier, ensuring that American leadership is 
indispensable and enforced.
    I am sorry.
    Ms. Harman. Well, if I could just enthusiastically embrace 
that, that's why I think Congress has to enact an authorization 
to use military force for the region, which would identify the 
trade-offs and how to create a strategy for United States 
leadership that puts maximum pressure not just on Iran--and by 
the way, we can curb its malign behavior outside the contours 
of the deal and we should be done more--but against other 
parities in the region who are engaged in nefarious activities 
in any country where they are.
    And we should dispel this notion that the U.S. is leaving 
the region and retreating from our responsibilities, that we 
have developed since the end of World War II with allies that 
have created an order in the world that's valuable and we 
should try to maintain.
    Mr. Schneider. I think our leadership is more important now 
than ever.
    Mr. Rademaker, do you have a response----
    Mr. Rademaker. Just a concluding thought. Authorization for 
use of military force--fine idea. What President Trump asked 
for, I would say--asked the Senate to do--would properly be 
characterized as an authorization to impose economic sanctions, 
and the Senate wouldn't do it. So----
    Mr. Schneider. Well, that's why--I think there's a sequence 
of things. We need to be able to apply the pressure, have the 
critical threat, and work to build the strategy long-term well 
beyond 2025, well beyond 2030, to make sure Iran never gets a 
nuclear weapon.
    Ms. Harman. The American people deserve a voice in this. 
They have to understand what the trade-offs are in terms of 
resources and loss of life, and they haven't been included in 
the conversation the way they could be if Congress, on a 
bipartisan basis, led by this committee, would debate seriously 
and, hopefully, help pass an authorization to use military 
force.
    Ambassador Bloomfield. Well, if I could just offer a final 
thought. I support what you're saying about strong American 
leadership, about authorization for use of military force, 
about having a debate, about doing the right thing on the 
nuclear issue.
    I also feel that we need a much stronger view of the 
vulnerability of the Iranian regime, and I think what you're 
saying is we need to understand their legitimacy problems, 
their economic mismanagement problems, their criminal record, 
the accountability for all of the things that they've done not 
only to us but to the rest of the region and the world.
    We've never held them to account. We've never even had a 
full accounting of what this regime has done. If we do that, we 
will see a very weak and isolated group of leaders who are on 
thin ice and who are trying to make a lot of noise and hold up 
bright shiny objects in order to gain a little bit of 
legitimacy and buy some time.
    I think if we do that, we can put together a comprehensive 
strategy that uses the wisdom that my two panelists have 
offered. I support much of their wisdom of what they put 
forward on the nuclear side.
    But let's also have a comprehensive policy that says once 
and for all that this malign actor needs to be pushed back in 
the box.
    Chairman Royce. And, Ambassador, we'll--we will be--Brad, 
you and I, Ambassador, this committee will be further engaged 
in that discussion with you and with all three of our witnesses 
today.
    I really want to thank you for your testimony and we thank 
the members also for your questions.
    So in about an hour the President will let us know his 
decision with respect to sanctions and, by extension, the 
nuclear deal, and we'll see what he has to say and go from 
there.
    And this committee will stay engaged. But for now, we stand 
adjourned and thank you, again.
    [Whereupon, at 12:39 p.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  [all]
                                  
                                  
                                  
</pre></body></html>
